<html>
<title> - POLITICAL PRISONERS IN CHINA: TRENDS AND IMPLICATIONS FOR U.S. POLICY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                     POLITICAL PRISONERS IN CHINA:
                TRENDS AND IMPLICATIONS FOR U.S. POLICY

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 3, 2010

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov
?



                  U.S. GOVERNMENT PRINTING OFFICE
57-905                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8b9c83ac8f999f988489809cc28f8381c2">[email&#160;protected]</a>  

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate                               House

BYRON DORGAN, North Dakota,          SANDER LEVIN, Michigan, Cochairman
Chairman                             MARCY KAPTUR, Ohio
MAX BAUCUS, Montana                  MICHAEL M. HONDA, California
CARL LEVIN, Michigan                 TIMOTHY J. WALZ, Minnesota
DIANNE FEINSTEIN, California         DAVID WU, Oregon
SHERROD BROWN, Ohio                  CHRISTOPHER H. SMITH, New Jersey
SAM BROWNBACK, Kansas                EDWARD R. ROYCE, California
BOB CORKER, Tennessee                DONALD A. MANZULLO, Illinois
JOHN BARRASSO, Wyoming               JOSEPH R. PITTS, Pennsylvania      
GEORGE LeMIEUX, Florida              

                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                                                          


                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, To Be Appointed
                  Department of Labor, To Be Appointed
                Department of Commerce, To Be Appointed
                       At-Large, To Be Appointed
                       At-Large, To Be Appointed

                 Charlotte Oldham-Moore, Staff Director

             Douglas Grob, Cochairman's Senior Staff Member

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Hon. Byron L. Dorgan, a U.S. Senator from 
  North Dakota, Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Cohen, Jerome A., Professor, New York University School of Law; 
  Co-director, U.S.-Asia Law Institute; and Adjunct Senior Fellow 
  for Asia Studies, Council on Foreign Relations.................     5
Rosenzweig, Joshua, Senior Manager for Research and Hong Kong 
  Operations, The Dui Hui Foundation.............................     8
Wan, Yanhai, Director of Beijing Aizhixing Institute, Expert on 
  HIV/AIDS, Human Rights, and Civil Society in China.............    10
Richardson, Sophie, Asia Advocacy Director, Human Rights Watch...    12

                                Appendix
                          Prepared Statements

Cohen, Jerome A..................................................    28
Rosenzweig, Joshua...............................................    32
Wan, Yanhai......................................................    37
Richardson, Sophie...............................................    39

Levin, Hon. Sander...............................................

                       Submission for the Record

Compilation of Representative Cases from the CECC Upgraded 
  Political Prisoner Database, submitted by Chairman Dorgan......    41


 POLITICAL PRISONERS IN CHINA: TRENDS AND IMPLICATIONS FOR U.S. POLICY

                              ----------                              


                        TUESDAY, AUGUST 3, 2010

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:19 
a.m., in room 628, Dirksen Senate Office Building, Senator 
Byron Dorgan, Chairman, presiding.

  OPENING STATEMENT OF HON. BYRON DORGAN, A U.S. SENATOR FROM 
 NORTH DAKOTA, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Chairman Dorgan. We're going to call the hearing to order.
    I'm Senator Byron Dorgan and I am Chairman of the 
Congressional-Executive Commission on China. This hearing is 
being held at a time when the House of Representatives is not 
in session, so I unfortunately will not be joined by Members of 
the U.S. House of Representatives.
    But I will be joined by Members of the Senate this morning. 
They are now attending a proceeding in the Foreign Affairs 
Committee, I believe, but will attempt to get here as soon as 
possible. I wanted to begin the hearing reasonably close to the 
time that was advertised. I thank the witnesses for being with 
us today to discuss a very important issue for our country.
    The recent trials of scholars, activists, lawyers, and 
others in China have shone a spotlight on the Chinese 
Government's use of detention and imprisonment to squelch 
dissent or to advance government objectives.
    This Commission is the repository of the most complete 
publicly available database of Chinese political prisoners who 
are being held in some of the darkest cells in the world due to 
government human rights violations.
    I want to just show a printout from the database that was 
created and is maintained by our Commission. This three-inch 
thick binder contains names of people who are being held in 
Chinese prisons, some without hope, some for a lifetime, some 
for 10, 20, and 30 years. These prisoners have been convicted 
by the state, by the Government of China, for various offenses 
against the state. We are going to talk about that today.
    One of the things that I want to learn from the experts who 
will testify today is, what is the trend? Is the trend toward 
imprisoning people for exercising the right of free speech or 
is the trend toward allowing more space for people to exercise 
their freedom of speech? China is changing, we know that. China 
is a significant country on the world stage. The relationship 
between our country and China is significant.
    The question is, what do we make of what is now happening 
in China with respect to the imprisonment of people who dare 
tell the truth, who dare on the Internet to type what to most 
of us would seem to be a very innocent email and discover it 
puts them 10 or 20 years in a Chinese prison? What do we make 
of all that? Can we, and should we not, expect China to be 
behaving in a different way, to be committed to rule of law, 
and for which they should be proud of, as opposed to a rule of 
law that all too often is bent to exercise the will of their 
government and to repress the free expression of their 
citizens.
    The title of today's hearing is, ``Political Prisoners in 
China: Trends and Implications.'' Recent trials of bloggers and 
professors, writers, lawyers, and others have heightened 
concern that the Chinese are now increasingly using detention 
and jail to stifle dissent and to advance government objectives 
at the expense of human rights.
    For example, just a few days ago, Gheyret Niyaz, a Uyghur 
journalist and editor of a popular Web site was sentenced to 15 
years in prison in China for apparently giving an interview to 
the foreign media after the July 2009 demonstrations and riots 
and for essays critical of some Chinese Government policies in 
Xinjiang.
    We have a distinguished panel of witnesses who will help us 
examine whether or not imprisonment for human rights violations 
is on the rise in China and whether the profile of a political 
prisoner is different today than, say, for example, 10 years 
ago.
    We will examine whether and how the threat of political 
imprisonment affects the work of people and organizations who 
have been engaged in human rights advocacy or who are involved 
in, for that matter, commercial activity in China, including 
U.S. citizens involved in commercial activity.
    The witnesses that we have invited will also explore the 
opportunities that Chinese citizens have lost as a result of 
the chilling effects of political imprisonment on public life 
and what the U.S. Government should do in response.
    I want to mention two alarming trends. First, with respect 
to the Internet, it appears to have spawned an entire new class 
of political prisoners in China. Chinese citizens are 
increasingly going to jail for posting essays online that are 
critical of the government or for trying to organize political 
opposition online.
    Many citizens who criticize their government in blogs and 
comment boards go unpunished, and at most their comment is 
deleted. But individuals with a track record of human rights 
advocacy or some kind of political activism or some sort of 
grassroots support organizing or opposition to the Communist 
Party, they seem to be systemically targeted.
    The most common charges against these citizens is the crime 
of subversion, which carries a sentence of up to life 
imprisonment, and also inciting subversion, which carries a 
sentence of up to 15 years. And individuals that are imprisoned 
on these charges have done nothing more than criticize the 
Communist Party, without advocating any form of violence.
    Now, the second major concern is the government's harsh 
crackdown on lawyers and human rights defenders inside the 
country of China. Over the last two years, a number of lawyers 
who have represented human rights advocates, including house 
church members, HIV/AIDS activists, Falun Gong practitioners, 
Tibetans, and Uyghurs, have been harassed and abused by the 
government because of their clients and because of the causes 
they represent.
    Perhaps the most outrageous, I think, and cruel example of 
abuse by the government is the disappearance of Gao Zhisheng, 
one of China's greatest human rights lawyers. He endured jail 
and torture because of his fearless advocacy and his commitment 
to speak the truth as he knew it. Last year, he was abducted 
from his home by security agents after his wife and two 
children had left China to seek asylum in this country. He 
disappeared.
    Now we know for more than a year security agents shuffled 
him from one location to another and subjected him to both 
physical and psychological abuse. After Members of Congress, 
including this Commission and myself, and the international 
community pressed his case, Gao mysteriously reappeared for two 
weeks, just two weeks, this past spring. He gave a few 
interviews, and then security agents abducted him again. His 
forced disappearance by the State reveals a complete disregard 
for individual rights and the rule of law.
    Let me say, with respect to the case of Mr. Gao, I have 
written on several occasions to the Chinese Embassy here in the 
United States, and have not received satisfactory responses, 
which is typical, I regret to say.
    Gao's photograph and a detailed record of his case can be 
found in the Commission's newly enhanced Political Prisoner 
Database.
    At this time, the Commission's Political Prisoner Database 
contains about 5,500 records of political prisoners. Our 
Commission believes that to promote the rule of law in China it 
is vital to publicize and seek the release of these people. It 
was international pressure that played a critical role in 
securing the freedom of Nelson Mandela, Lech Walesa, Kim Dae-
Jung, and many others who helped lead their countries to 
greater social justice.
    So, too, is our responsibility, to press for the release of 
political prisoners in China. Today's imprisoned dissidents are 
the leading figures of tomorrow's societies, in my judgment, 
and that is especially the case with respect to China. The new 
society in these countries will be led by people who understand 
and exercise a greater respect for human rights.
    Perhaps most of us in this large room have visited China, 
and we look at this very large, interesting country with an 
extraordinary history with wide-eyed interest. We understand it 
will play a significant role in the destiny of our country and 
the world for decades to come, centuries to come. The question 
is, what can we say to the Government of China to change and 
end their suppression of human rights and imprisonment of those 
who dare speak the truth--what can we do to change that?
    How can we continue to apply pressure on China, to say if 
you want to be a respected member of the modern world, if you 
want to be a respected member of the economic world, then you 
must change course with respect to the suppression of the human 
rights of your citizens. The State just cannot go to the 
Internet and find someone who has said something critical about 
the government and throw them in a dark prison cell away from 
society for 10 years, 20 years, or life. The rest of the world 
condemns that behavior and it must stop.
    We are joined today by four witnesses. I do want to read a 
fair amount of their background. The background recitation will 
take longer than their testimony, perhaps, but I want everyone 
to understand what these witnesses are about and what 
experience they have.
    Starting on my left is Mr. Jerome Cohen, Professor at New 
York University School of Law. He is the Co-director of the 
U.S.-Asia Law Institute and served for several years as C.V. 
Starr Senior Fellow and Director of Asia Studies at the Council 
for Foreign Relations.
    At Harvard Law School, he introduced the teaching of Asian 
law into the curriculum from 1964 to 1979. He has written 
extensively. He's published several books on Chinese law, 
including ``The Criminal Process in the People's Republic of 
China, 1949-1963,'' ``People's China and International Law,'' 
and ``Contract Laws of the People's Republic of China.'' He has 
a B.A. Phi Beta Kappa from Yale, and graduated from Yale Law 
School, where he was editor-in-chief at the Yale Law Journal.
    Mr. Cohen, that's quite a background. We welcome you here.
    Mr. Joshua Rosenzweig is the Senior Manager for Research 
and Hong Kong Operations of the Dui Hua Foundation where he has 
extensive research experience working in Chinese archives and 
libraries. Since joining that foundation in 2002, he has 
developed its comprehensive database on information about 
Chinese political and religious prisoners, and written more 
than a dozen volumes in the foundation's series of occasional 
publications.
    He received a B.A. from Swarthmore College. We express a 
special thanks to Josh, the foundation, and its executive 
director, John Kamm, for their extensive efforts on behalf of 
political and religious prisoners in China. Their assistance to 
the Commission has been invaluable, particularly in helping to 
launch the Political Prisoner Database.
    Dr. Wan Yanhai is Director of the Beijing Aizhixing 
Institute and an expert on HIV/AIDS, human rights, and civil 
society in China. He received a medical degree from Shanghai 
Medical University School of Public Health. Upon graduation, he 
worked in China's National Health Education Institute, then 
served on the staff of Beijing Modern Management College from 
1994 to 2002. He founded the Aizhixing Institute, which works 
toward prevention of HIV/AIDS transmission through community 
outreach.
    He has collaborated with the Chinese Society for the Study 
of Sexual Minorities, the National Working Committee of People 
Infected by HIV Through Blood Transfusion, the Working Group of 
Citizens Health Rights for Education, the China Patient Rights 
Project, and the Beijing LGBT Culture and Rights Center in 
2008.
    Dr. Wan, thank you very much for being here.
    Finally, Sophie Richardson. She's the Asia Advocacy 
Director of Human Rights Watch. Dr. Richardson oversees Human 
Rights Watch's work on China and speaks Mandarin Chinese. She's 
the author of numerous articles on domestic Chinese political 
reform, democratization and human rights in Cambodia, China, 
Hong Kong, and the Philippines, and of a new book on Chinese 
foreign policy, I understand.
    She has testified before the European Parliament and the 
U.S. Senate and the House of Representatives, provided 
commentary to BBC, CNN, the Far Eastern Economic Review of 
Foreign Policy, and NPR. She received her B.A. from Oberlin 
College and her doctorate from the University of Virginia.
    Dr. Richardson, thank you for being with us today.
    The entire statements of all four of the witnesses will be 
made a part of the permanent record in their entirety, and we 
would ask the witnesses to summarize their statements now.
    Mr. Cohen, let me begin with you. Again, let me welcome you 
to the Commission.
    [A compilation of Representative Cases from the Political 
Prisoner Database appears in the appendix.]

 STATEMENT OF JEROME A. COHEN, PROFESSOR, NEW YORK UNIVERSITY 
   SCHOOL OF LAW; CO-DIRECTOR, U.S.-ASIA LAW INSTITUTE; AND 
  ADJUNCT SENIOR FELLOW FOR ASIA STUDIES, COUNCIL ON FOREIGN 
                           RELATIONS

    Mr. Cohen. I'm grateful for the opportunity to be here and 
also for the Commission's continuing contribution to American 
understanding of China, especially in the area of human rights.
    I appreciated your statement, which I think accords well 
with all of those who know China. You were already, in effect, 
the first witness and we will try to supplement what you have 
said.
    This topic, as we all know, is as broad as it is important. 
I want to emphasize the breadth of it, the breadth of the term, 
``what's political'' and the breadth of the term, ``who are 
prisoners,'' and the disqualifications and sanctions that apply 
to people, not only those who suffer criminal prosecution, 
conviction, and are sentenced to jail, but those who don't but 
who are also prisoners in many significant ways.
    Now, the Chinese Government always denies that it has any 
political prosecutions. People are always prosecuted for 
violating specific provisions of the criminal law. But the 
criminal law, as we all know, is very vague and it permits a 
whole range of people, starting with classical political 
dissidents, democratic organizers, freedom seekers, and 
covering a whole spectrum of people who didn't realize they 
were political criminals but became so because they were merely 
protesting a range of local grievances, such as some of those 
you have mentioned: land disputes, property disputes, 
environmental, labor problems, birth control problems. These 
are all often local disputes that make people become political 
prisoners because there is no satisfactory outlet for their 
peaceful protest. Many of them, of course, get locked up.
    The trend with respect to prosecuting people--for example, 
engaging in conduct that endangers state security, a very vague 
term--is troublesome. It seems to be increasing; although we 
have some statistics--transparency is highly limited in this 
respect, as well as others. But as you mentioned, lawyers who 
defend these people often become political criminals. It isn't 
only the famous people that some of us have helped to publicize 
who become political offenders.
    Political can cover people like Xue Feng, the American 
petroleum geologist who was recently sentenced to eight years 
in prison. He thought he was acting in a commercial sense. His 
case has become highly political in terms that it involves 
alleged state secrets, it involves diplomatic sensitivities, it 
involves international business, the concern of the business 
community.
    Then you have other examples. For example, the recent trial 
of alleged mafia organized crime people in Chongqing involves 
domestic Chinese politics for perhaps the rivalry for who will 
succeed the current leaders in 2012. There are many reasons why 
the Chinese call their legal system a political legal system. 
It's not a legal system, but it's a political legal system.
    And if you are unfortunate enough to be prosecuted for a 
political offense, you suffer not only the inadequate 
protections of ordinary criminals, those alleged to be 
criminals in China, but you have additional handicaps. In my 
statement, I recite a litany of defects in the current Chinese 
criminal justice system that denies people fair trials.
    And if you're a political offender, your situation is worse 
off because your trial will often be closed to the public, even 
to your family, and recently, even if you're an American 
citizen, to American consular representatives. Even when 
they're open in principle, they're often not open in reality. 
Lawyers who wage a vigorous defense in cases of this nature 
themselves risk prosecution, disbarment, or other sanctions.
    In sensitive political cases, those who hear the case don't 
make the decision. The decision is made often by court leaders 
who may know very little about the case. The whole process of 
political prosecution is generally under the supervision of the 
Communist Party political-legal group.
    Now, we shouldn't only worry about criminal justice in 
China for punishing political offenders. We have to worry about 
a range of sanctions that aren't called criminal. Reeducation 
through labor enables the police, on their own, to put away any 
political criminal or anybody who asks too many questions for 
as long as three years, and that can be extended to four. There 
are some similar sanctions.
    But then there are shorter sanctions that intimidate 
people. Petitioners who prove too irksome and find no outlet 
for their petitions often get locked up in ``black jails.'' 
These are unauthorized penal institutions and they do not have 
very good regulation, and there are many abuses that occur 
there.
    There is a great deal of low-visibility harassment of 
people who are not formally locked up. They may not be put in a 
mental asylum. They, however, may find their daily lives are 
severely constricted. Some lawyers lose their right to practice 
law, even though they may not be locked up.
    Political offenders who have already served their criminal 
sentence are themselves under continuing restraint, very often. 
Some have also been sentenced to deprivation of political 
rights for a year, or up to five years. That means they can't 
do very much. After that period of deprivation is over, these 
people are often subjected to continuing surveillance, house 
arrest, restriction of any meaningful life with no legal 
authority whatever. The former Shanghai lawyer Zheng Enchong, 
whom I managed to visit in May, can't really leave the house. 
He's been restricted for years.
    I worry about the forthcoming release of the famous ``blind 
man,'' the barefoot lawyer, Chen Guangcheng, who, on September 
9, will conclude four years and three months in prison on 
trumped-up charges.
    Chen Guangcheng had been protesting birth control law 
violations by the local authorities and they put him away. He 
used to say to me, ``What do they want? I want to use legal 
methods to solve these problems and there's no outlet, and look 
what they do.'' The question is, what will happen to him on his 
release September 9?
    Chairman Dorgan. Did you visit him in prison?
    Mr. Cohen. No. He's not allowed. It was very difficult, 
even for his wife to visit him. I visited him just before he 
was detained in his local village. Afterward, he was under 
constraint. Before they even invoked the criminal process he'd 
had over 100 people surrounding his house 24/7. His wife lives 
under that kind of restraint today.
    What we discovered is that his five-year-old daughter 
cannot enroll in the village school now until his political 
problem is settled. This is a very disturbing aspect. 
Traditional China used to have collective punishment. An 
offender's family would also suffer severely, sometimes through 
two generations, or three. China has abandoned that barbarity 
in principle, but in practice we see the families of many of 
these political offenders suffer.
    In New York now you have the daughter of an ex-lawyer from 
Shanghai, Zheng Enchong. She was told she has no future if she 
wants to go on to university. But to deny a five-year-old child 
the opportunity to start education because her father has been 
a political offender and to use her as a tool in an evident 
blackmail negotiation that will begin September 9 to try to 
curb his activity is a disturbing trend.
    So we have the whole range of, who are ``political people'' 
and who are ``prisoners.'' ``Prisoners'' can embrace many 
people. One concept would say, if you can't go back to your 
country because you've been excluded for over a decade, in a 
way you're a prisoner in the United States because you're 
excluded from your own society. So the breadth of this topic is 
breathtaking.
    Now, foreigners get involved in the system, too. That's the 
significance of the Xue Feng case. I can't go into detail in my 
opening, but it's in my statement. But one thing we've seen, 
foreigners usually, like Xue Feng, have the benefit of a 
consular convention between the United States and China, and 
that convention needs some repair. I criticize the U.S. 
Government in certain respects for its own conduct on consular 
conventions.
    Finally, you asked, quite rightly, what can we do? One of 
the few things we can do, is do a better job on the official 
U.S.-China dialogues and the official U.S.-China expert 
dialogues on human rights. These have been pretty unimpressive, 
even when they occur. They're frequently interrupted. Also, 
people talk past each other and not much has happened. We have 
a new administration that is trying hard to make these more 
meaningful dialogues, but it's very difficult to accomplish 
that.
    In my statement, I make some suggestions for how to improve 
these official dialogues. For example, they should discuss 
concrete cases. Chinese officials love to talk abstract 
principles. They don't like to talk reality of concrete cases, 
such as the one you mentioned of lawyer Gao Zhisheng.
    Also, we need the participation of higher level leaders. We 
ought to try--it seems like a way-out idea, but I don't think 
so. It's worth trying--to get those who really make the human 
rights decisions in China to take part in some of these 
dialogues. Have the head of the Party National Political Legal 
Committee, Mr. Zhou Yongkang, for example, who is a member of 
the Standing Committee of the Politburo, have him come and 
spend a day or two 
exchanging ideas with a counterpart. We would have to produce 
significant people. We should have the head of the Supreme 
Court, the head of the procuracy, the head of the Ministry of 
Justice. These are officials the Party has great confidence in 
who make the decisions. We ought to have access to them.
    I have a number of other suggestions, but I would only say 
we should encourage the efforts of the State Department to try 
to make these dialogues more meaningful, to open up the 
experts' dialogue to people who are not officials but know a 
lot about what's going on, and to encourage, apart from the 
official dialogues, the NGO dialogues that are beginning to 
take place, so-called Track 2 dialogues. Track 2 normally 
implies non-officials.
    On the Chinese side, they end up being pretty official, but 
I don't mind that if we can get a range of people into this 
process of discussion in a more informal way. So there are many 
things that can be done, and I hope this hearing helps to 
stimulate them.
    Chairman Dorgan. Mr. Cohen, thank you very much. I've read 
your testimony and I appreciate very much your summary of that 
testimony today, which I think is very insightful.
    Joshua Rosenzweig, Senior Manager for Research and Hong 
Kong Operations, The Dui Hua Foundation.
    Mr. Rosenzweig, thank you very much.
    [The prepared statement of Mr. Cohen appears in the 
appendix.]

STATEMENT OF JOSHUA ROSENZWEIG, SENIOR MANAGER FOR RESEARCH AND 
          HONG KONG OPERATIONS, THE DUI HUA FOUNDATION

    Mr. Rosenzweig. Thank you, Mr. Chairman. I am privileged to 
be invited to participate in this hearing today, and I'd like 
to thank you, your fellow Commissioners, and the CECC staff for 
inviting me.
    The Dui Hua Foundation has been engaged for over a decade 
in efforts to uncover the names of individuals imprisoned in 
China for the non-violent expression of their political and 
religious beliefs. Our database of prisoner information 
includes names of roughly 22,000 persons imprisoned for these 
reasons since 1980, of which more than 5,800 form an active 
registry from which we develop prisoner lists designed to raise 
individual cases directly with the Chinese Government and 
encourage better treatment and early release.
    I'd like to start by discussing trends in political 
imprisonment in China. Since roughly the beginning of 2008, 
there have been clear signs that earlier progress toward rule 
of law in China has stalled, or even suffered a reversal, and 
there is mounting evidence that a crackdown is well under way, 
one particularly targeting members of ethnic minorities, 
government critics, and rights defenders.
    Evidence of this can be seen in the recent sharp increase 
in criminal proceedings for endangering state security, a 
category of crime that includes vaguely defined and arbitrarily 
applied offenses such as splittism, inciting subversion of 
state political power, and trafficking in state secrets for 
overseas entities.
    State security arrests more than doubled in 2008 compared 
to the previous year, and more arrests and indictments for 
endangering state security were carried out in China in 2008 
and 2009 than in the entire five-year period preceding.
    Recent statistics suggest that as many as 1,500 Chinese 
were convicted on state security charges in 2009, more than 
three and a half times the number five years earlier. In the 
Appendix to my written statement, I show the data behind this 
trend.
    Moreover, China's Supreme People's Court recently announced 
that these individuals are being punished more harshly, with a 
20-percent increase in sentences of at least five years' 
imprisonment in 2009. That includes people serving life 
sentences and being sentenced to death as well.
    One of those sentences was given to Liu Xiaobo, whose 11-
year sentence for publishing critical essays on overseas Web 
sites and helping to draft the Charter 08 political manifesto 
is the longest sentence known to have ever been handed down for 
inciting subversion. Evidence suggests the majority of those 
punished on state security charges are members of the Tibetan 
and Uyghur ethnicities, many of them detained for engaging in 
non-violent criticism of government policies.
    The targets of political repression can expect no 
constitutional or legal guarantee that their rights will be 
protected during the proceedings against them. Defense lawyers, 
as Professor Cohen says, face numerous obstacles in simply 
trying to get access to meet with detainees or to get access to 
prosecution evidence before a trial, and their defense 
arguments in court fall on deaf ears while decisions about 
defendants are prepared by Party-dominated adjudication 
committees, sometimes even before a trial has even taken place.
    Once imprisoned, these individuals are seldom offered any 
clemency through sentence reduction or parole, victims of a 
pattern of discrimination based on policies of strict handling 
and a system that equates good behavior with admission of 
wrongdoing. This extends also to medical parole as well, even 
for gravely ill individuals such as Hu Jia, Li Wangyang, or 
many others.
    You mentioned the disturbing case of Gao Zhisheng, Mr. 
Chairman, and I appreciate the work that this Commission has 
done and the personal interest that you yourself have taken in 
this case. Unfortunately, it appears that more work will need 
to be done by all of us in order to guarantee Mr. Gao's freedom 
and safety.
    I believe that the situation that I have described here is 
a consequence of the Chinese leadership's acquiescence to a 
hard-line element within the Party that sees harsh criminal 
justice measures as superior to building rule of law as a means 
of maintaining stability. Their dominance has been at the 
expense of those who support moving more resolutely along a 
path of reform and who feel frustrated by the recent lack of 
progress and growing reliance on repression in China.
    Now, I believe that an important goal of our collective 
human rights engagement with China should be to support the 
efforts of this second group, particularly at a moment such as 
this when they feel the most embattled.
    In my written statement I offer some concrete 
recommendations for U.S. Policy: Enhancing the bilateral human 
rights dialogue with China, playing a more active role in the 
human rights institutions of the United Nations, and making 
more frequent use of this Commission's excellent, and now 
enhanced, Political Prisoner Database to prepare prisoner lists 
for use by Members of Congress in their interactions with 
Chinese officials. In the interest of time, I will defer a 
detailed discussion of these recommendations until asked to do 
so later in the hearing.
    Finally, Mr. Chairman, I'd like to thank you again for your 
leadership in this area and to pay tribute to the longstanding 
and close working relationship that Dui Hua enjoys with this 
Commission, and I look forward to your questions. Thank you.
    Chairman Dorgan. Mr. Rosenzweig, thank you very much.
    Dr. Wan, I've already introduced you. You have a medical 
degree from Shanghai Medical University School of Public 
Health, you've worked extensively in Citizens Health Rights 
Education in China, and we appreciate very much your 
willingness to be here and testify. I understand as well, and I 
think you do at the same time, that there is some jeopardy for 
you to speak publicly. We appreciate, nonetheless, your 
willingness to do that. I'll ask you about that during the 
question period, but Dr. Wan, why don't you proceed?
    [The prepared statement of Mr. Rosenzweig appears in the 
appendix.]

    STATEMENT OF WAN YANHAI, DIRECTOR OF BEIJING AIZHIXING 
 INSTITUTE, EXPERT ON HIV/AIDS, HUMAN RIGHTS AND CIVIL SOCIETY 
                            IN CHINA

    Dr. Wan. Yes, Senator Byron Dorgan. I am Wan Yanhai, 
Director of Beijing Aizhixing Institute. I've been working on, 
actually, HIV/AIDS prevention and care for 20 years, since 
1990. My organization, Beijing Aizhixing Institute--has been 
working on HIV/AIDS, human rights, and civil society 
development in China for 16 years, since 1994.
    In the summer of 1994, I had a meaningful conversation with 
a psychiatrist in Beijing--a good friend--that influenced my 
philosophy about serving people. When told I was being 
monitored by the security agency in China, I said I did not 
care, and I could still manage my work from jail.
    The senior doctor said that if I am sacrificed, nobody 
benefits. If I'm sacrificed, I would not be able to work. It's 
a loss. So to continue to keep on with my work that is helpful 
to others, I need to protect myself.
    This philosophy has guided my approach of dealing with the 
security agency in China, so with great effort and careful 
attention I've managed to keep working in China for the past 16 
years. In the past 16 years, I was briefly detained from August 
24 to September 10, 2002, and November 25 to November 28, 2006, 
and December 27 to December 28, 2007. I left China because of 
security concerns in general in 1997, October 2002, and May of 
this year, but most of the time I've been working in China.
    So today, while I'm sitting here and not in prison, I have 
to say that I benefited from the following factors. First, 
actually, AIDS is a public health concern which the Chinese 
Government may also care about. Second, I used to work at the 
Government Health Education Institute, where I became known to 
the public and also established good working relations and 
friendships with individuals in the government.
    Government officials who were friendly may also help. The 
international media coverage also offered some support and 
protection, but I also carefully managed my own activities and 
took a sensitive approach in the language I used surrounding my 
work.
    I don't know whether these are the reasons for my success 
or failure, but I'd like to share them with you. First, to be 
transparent, don't hide. So that is a general approach of my 
activities to be transparent. Second, to understand that all 
your activities are monitored all the time by security and we 
need to be careful and be sensitive all the time. Third, use a 
professional approach and polite language. Fourth, to avoid 
personally offending the police and keep in communication with 
them. So, when arguing with the police, argue with them on 
logic, not about the order of things. So, understand and be 
aware of friends and allies inside of the government and be 
critical not just on Chinese issues, but also be critical of 
other countries.
    So when I was detained by the Beijing State Security Bureau 
for releasing a classified document from August 24 to September 
20, 2002, and also detained by the Beijing Public Security 
Bureau in November 2006, the investigation was similarly 
focused on my funding sources and relations with human rights 
groups and the media and the information provided to 
foreigners. In 2006, the focus of the investigation was on my 
relationships with overseas foundations and the human rights 
defenders inside of China.
    As a non-governmental organization [NGO] receiving foreign 
donations, I was really careful when answering questions and 
insisted that I was serving the Chinese people and China, and 
we happened to receive foreign donations. We also applied for 
Chinese Government funding, although we haven't received much 
funding from the government side.
    While in detention, I was careful in my use of language and 
tried not to offend the police. Sometimes we chatted. When they 
asked questions, I seriously thought about my response before 
answering. I told the police officers that I was serving the 
people. If my work became too difficult, I could give up. I 
cooperated with a bottom line that I should not harm the third 
Party. In talks over tea or meetings in my office with security 
agents, I was more open and frank and questioned the security 
department or government policy in general.
    As a leader of an organization, we manage the organization 
in a transparent and a professional way and based on the law. 
We anticipated that the Chinese Government would come to 
investigate any day. So our work, however, has been severely 
damaged by the government's raid. Our work to get compensation 
for those infected with HIV/AIDS through blood transfusions was 
canceled in November 2006.
    Many other events were also canceled and we psychologically 
felt bad. We stopped working a month before the Beijing 
Olympics. For a month, we stopped working before the People's 
Republic of China's 60-year anniversary. We had to politically 
censor ourselves, which might damage our solidarity with other 
organizations.
    I left China via Hong Kong on May 6 this year, after being 
harassed by multiple government agencies. In the first six 
months of 2010, our organization received pressure and 
harassment from about 10 government agencies, including Public 
Security, State Security, the Tax Department, the Department of 
Industry and Commerce where we were registered, the Propaganda 
Department, the File Department, et cetera. Human rights 
advocacy and civil society groups are developing rapidly in 
China, but human rights defenders and civil society groups are 
under surveillance and recently under attack by the Chinese 
Government.
    How can the U.S. Government make a difference? First, U.S. 
AID [U.S. Agency for International Development] programs can 
make a difference, but currently I don't know whether the 
United States has a clear strategy to support civil society 
groups and human rights defenders. Should the United States 
have an evaluation of its current AID programs in China from a 
human rights perspective?
    Second, information and Internet freedom is crucial in 
empowering people and protecting people, but if people are not 
well organized, information itself cannot work. The United 
States should strengthen its work in supporting people in China 
in their efforts to organize in a way that is based on 
democratic laws and principles.
    Third, the United States should guarantee that the U.S.-
based businesses will not be used to persecute human rights 
defenders and civil society organizations. Companies involved 
in the information censorship of the Internet--information to 
the Chinese people--should be punished in a democratic world.
    Thank you.
    Chairman Dorgan. Dr. Wan, thank you very much. We 
appreciate your being here and your statement.
    Next, we will hear from Dr. Sophie Richardson, who is the 
Asia Advocacy Director of Human Rights Watch.
    Dr. Richardson?
    [The prepared statement of Dr. Wan appears in the 
appendix.]

 STATEMENT OF SOPHIE RICHARDSON, ASIA ADVOCACY DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Thank you, Chairman Dorgan, for convening 
this hearing and for your continued leadership on these issues. 
It is equally an honor to be here with you this morning and to 
work with your staff as it is to be with such a distinguished 
group of fellow panelists.
    I'm going to summarize my remarks to leave time for 
questions. We have written extensively over the past two 
decades about a number of very high-profile political 
prisoners, including Liu Xiaobo, Gao Zhisheng, Chen Guangcheng, 
and Rebiya Kadeer, the Panchen Lama, Tan Zuoren, Huang Qi, the 
list goes on and on.
    Today I want to highlight two individuals whose cases have 
gotten rather less attention, but whose treatment we believe 
represents an alarming development, extraordinarily harsh 
sentences given to those who are not dissenters or critics, but 
who in many ways embody the characteristics that the central 
government says it wants.
    Karma Samdrup is one of the largest private collectors of 
Tibetan antiquities in China. He financed an environmental 
protection organization, the Qinghai Three Rivers Environmental 
Protection Group. Over the years, the group has won several 
awards for its work and he was praised in the state-run press. 
However, he was arrested in Chengdu, Sichuan Province, in 
January 2010 on charges of robbing graves that dated back to 
1998. Karma Samdrup's relatives and friends believe that the 
revival of the decades-old charges stem from his efforts to 
gain the release of his brothers, who had fallen afoul of local 
officials by criticizing their involvement in violating 
environmental protection laws. In June 2010, Karma Sondrup 
received a 15-year sentence.
    Gheyret Niyaz, who you mentioned in your opening 
statements, is a Uyghur journalist and the editor of a popular 
Web site called Uighurbiz. He was detained in October 2009 on 
charges of endangering state security, and on July 23, 2010, 
was also given a 15-year prison sentence. His so-called crime 
appears to have been giving an interview to the foreign media 
after the July 2009 ethnic violence in Xinjiang, although in 
those discussions Niyaz cited economic inequality and the role 
of outside instigators, which is the government's line in the 
unrest.
    Although over the years we have observed seemingly random 
persecution of individuals who appeared to pose no overt threat 
to the Chinese Government, the charges and lengthy sentences of 
these two men, we believe, should ring alarms. The two cases 
suggest a new twist in the nature of political imprisonment, 
which is a theme that Professor Cohen raised, that one can 
embody the qualities that the government claims it wants, 
people who are reasonably apolitical, entrepreneurial, and 
involved only in soft, state-approved causes, only to find 
themselves arbitrarily deemed a threat to state security.
    Put more simply, if these people are considered threats to 
the State, who does not fall into that category? How can people 
avoid such charges? Should they not be in business? Should they 
not support government-sanctioned causes? Should they stop 
speaking entirely?
    At the same time, we cannot forget the untold numbers of 
political prisoners whose names we do not know, those who are 
arbitrarily detained in the wake of the March 2008 protests 
across the Tibetan plateau and those who are similarly held in 
``black jails,'' the facilities that Professor Cohen mentioned 
earlier.
    We must make a particular effort not to forget those in 
Xinjiang who are the victims of enforced disappearances, 
meaning state-sponsored disappearances, in the wake of protests 
in that region and demand account for them, and we must not 
forget individuals such as Liu Xiaobo who committed the 
audacious so-called crime of asking the Chinese Government to 
uphold its own Constitution and laws, or Cheng Guancheng, who 
did nothing more than try to take the Chinese legal system at 
its word.
    All of these cases lead us to the conclusion that political 
imprisonment in China has reached new lows of arbitrariness and 
that therefore all behavior may be subject to some kind of 
reprisal from the government. Your business success today might 
be a liability tomorrow. Your call to end unrest last year may 
land you in hot water today. Your approval from the government 
at any point is no guarantee of a life free of persecution.
    The United States should remain profoundly concerned about 
the Chinese Government's persecution of its citizens. Until 
peaceful dissent is tolerated, the country cannot be expected 
to be predictably transparent or stable.
    But in its vast relationship with China, the ever-more 
arbitrary nature of political imprisonment should serve as a 
reminder that many of the U.S.' other goals and interests--the 
rule of law, a predictable trade regime, the development of 
civil society--are at risk so long as those in China who share 
those views and goals are considered potential threats by their 
government.
    What can the U.S. Government do? We offer four 
recommendations here today, and I would be happy to elaborate 
on these. First, Secretary Clinton should make a strong, 
explicit statement that the United States is concerned by the 
noticeably worsening human rights environment in China. 
Continuing to say, as seems to be the preferred phrase, that 
the Unted States and China agreed to disagree over human rights 
issues is profoundly unhelpful.
    Second, the United States should unambiguously reject the 
Chinese Government's attempt to force the United States to 
remain silent on Tibet and Xinjiang on the basis of the Joint 
Declaration's recognition of China's ``core'' interests. This 
may strike some as merely a semantic debate. It's not in 
Beijing, and it's rhetoric the United States needs to be very 
careful about.
    Third, all senior administration officials should commit to 
raising at least one individual case in every meeting they have 
with their Chinese counterparts, particularly given the 
administration's claims to taking a whole-government approach 
to the promotion of human rights in China.
    Finally, President Obama should welcome in the White House 
former political prisoners from China to give an unequivocal 
sign of support to China's fledgling civil society. Thank you.
    [The prepared statement of Ms. Richardson appears in the 
appendix.]
    Chairman Dorgan. Dr. Richardson, thank you very much.
    Let me ask a general question first. Dr. Richardson, you 
said, at the end of your testimony, ``a worsening situation 
with respect to human rights violations'' or the ``violations 
of individual rights in China.'' Mr. Cohen, you referred to 
that; Mr. Rosenzweig as well.
    When we talk about this, we talk about trends. Is there 
empirical evidence that allows us to say things are getting 
worse on this issue in China, even as China becomes a larger 
and larger part of the commercial world and there's a lot of 
travel back and forth, and so on? China is increasingly seizing 
people, denying them their basic rights in China and throwing 
them into prison. So we say it's getting worse. Is there 
empirical data to back that up or is it just our notion that 
the trend is a bad trend? Dr. Richardson?
    Ms. Richardson. Senator, I guess I would answer that 
question in two ways. I mean, one of the best pieces of 
empirical information is sitting next to me. The fact that the 
space for civil society in China and organizations that were 
recognized and tolerated, even encouraged by the government for 
10, 15 years, organizations like Dr. Wan's, organizations like 
Guo Jianmei's, organizations like Gongmeng, the Open 
Constitution Initiative, which is funded by Yale, these kinds 
of organizations have come under tremendous government pressure 
in the last 18 months, having been approved of for so long, I 
think is one quite telling indicator.
    The other way I would answer the question is simply that if 
you asked people, I think, 10 or 15 years ago what behavior 
they needed to refrain from engaging in in order to stay out of 
hot water, people can give you a pretty straightforward and 
reasonably reliable answer. I think that that can't be answered 
so easily anymore is what worries us.
    Chairman Dorgan. All right.
    Mr. Cohen?
    Mr. Cohen. As I said, China remains largely non-
transparent, although inroads have been made in various ways. 
You properly mentioned the Internet as a prominent one. We have 
statistics to some extent. They're not sufficient, but they 
certainly show a trend. Mr. Rosenzweig has provided them. I 
think that's useful.
    There are other ways. We know the 17th Chinese Communist 
Party Congress, held almost three years ago, enunciated policy 
changes that have been practiced now by the legal elites that 
operate according to them: judges, prosecutors, officials, law 
professors, lawyers. They all are expected to conform to the 
new doctrine, and the new doctrine is regressive. It is in 
large part a return to the ideology of the pre-1949 liberated 
areas when China controlled roughly 90 million Chinese in rural 
areas.
    Not only has the policy tightened up, there's also a lack 
of emphasis on those features of the system, like defense 
lawyers, who can alleviate some of the hardships of the 
policies. If you read the speech of the head of the Party Legal 
Committee for the country, it's as though you're back in the 
19th century. He never mentions the existence of defense 
lawyers, only the need for better repression through the 
police, prosecutors, officials, and judges.
    Finally, it is very important, I think, to recognize what 
is seldom recognized. These are not only policy changes, but 
there have been many appointment changes, personnel changes, 
where people more sensitive to professional legal 
considerations to government under law, rule of law, have been 
replaced by Communist Party apparatchiks who really see law 
only as an instrument of current Party policy.
    Chairman Dorgan. Mr. Rosenzweig, you use some data, and 
you'll probably reinforce that, but it is also perhaps the case 
with the Internet, that some of these cases can ricochet around 
the world quickly by the Internet for those of us that care 
about who is being railroaded and who's being sent to a prison 
for exercising their right to speak. I guess the question is, 
is there just more transparency, via the Internet and the 
media, which allows us to see who is being shuttled off to 
prison, or is it, in fact, the case that the trend is 
increasing in political imprisonment?
    Mr. Rosenzweig. I think the Internet plays a role in 
several different ways. First of all, I think over the past, 
say, 10 years, it's true that a large proportion of political 
speech, political activity, so to speak, in China has migrated 
to the Internet, takes place on the Internet, which on the one 
hand makes it easier for us on the outside to follow it and to 
track it. It also makes it, I would say, easier for the 
government to track it as well.
    So the fact that people are migrating this political space 
to the Internet both increases the channels in which that kind 
of discussion can take place, but it also makes it easier for 
that activity to be curbed. It also creates the opportunity for 
us to learn about those cases. So there is a certain extent to 
which the increase in the amount of information that comes out 
of China--especially compared to 10 years ago--about these 
kinds of cases, does play a factor in increasing our awareness.
    But if you compare the amount of cases that we know about, 
through whatever channels, where we actually know the name of a 
person that has been detained in China for these types of 
offenses, if you compare that to the kinds of numbers that the 
Chinese Government provides, and there are very broad 
statistics that they do provide, it's still a tiny fraction. So 
in other words, we are learning more of the names of people who 
are being detained for these kinds of offenses, but as Dr. 
Richardson says, there are still a large number of cases that 
we don't know about as well.
    Chairman Dorgan. Dr. Wan, when you left China in May of 
this year, did your family leave with you?
    Dr. Wan. Yes.
    Chairman Dorgan. And when you left in May, you had 
previously, I believe, left the country on two other occasions.
    Dr. Wan. Yes.
    Chairman Dorgan. Why did you decide, in May, that you 
needed to leave China?
    Dr. Wan. Yes. In March, we received a visit and pressure 
from multiple governmental agencies and that is quite unusual. 
So as a large NGO which received a large amount of donations 
from foreign foundations, especially from the United States, it 
could be a risk.
    Chairman Dorgan. Did you fear being arrested at that point?
    Dr. Wan. Yes. Yes.
    Chairman Dorgan. You had been arrested twice before and put 
in jail for short periods of time. Is that correct?
    Dr. Wan. Yes. In 2003, it was four weeks. In 2006, it was 
three days. Yes. Yes.
    Chairman Dorgan. You have come to this country, and I think 
all of us understand that you do very significant work in China 
on the subject of HIV/AIDS, just as an example. Why on Earth 
would the government view that work as potentially subversive 
or view those engaged in that work as needing some extra 
surveillance? Is it because, as you implied, you received some 
funding from U.S. charities or some other assistance from the 
United States?
    Dr. Wan. I think China might have some big strategy change. 
Before the Olympics, China developed really strong security 
capacities. After the 60-year anniversary of the Chinese 
Communist regime, you might think about the 100-year 
celebration, so they might think of longer term strategies as a 
part of the plan, a new wave of crackdown against civil 
society, and it's really over with, like the long-term Women's 
Legal Education Center. Beijing University was sponsoring the 
Women's Legal Education Center, which is totally not a 
political organization.
    So the Women's Legal Education Center worked closely with 
the government and always tried to push people to work along 
with government policy. But they received huge pressure from 
the government. So, like Oxfam Hong Kong, also got pressure. 
Oxfam Hong Kong worked with the government and has been subject 
to really strong political censorship.
    So even this type of non-political organization received 
pressure from the government. This is the issue. There are some 
other issues. My colleagues, after I left China, two lawyers 
who are now managing our office, both received threats from the 
police that they might be arrested.
    Chairman Dorgan. Just a couple of questions of you, then I 
want to go back to others on the panel. Is the rate of HIV and 
AIDS in China substantial as compared to this country, for 
example, or other countries in the world? Is it growing?
    Dr. Wan. In general, information on the epidemic is not 
transparent. So we know three waves of the epidemic. The first 
is the HIV/AIDS epidemic among drug users. The epidemic among 
drug users was first found 20 years ago in China in the border 
areas. So now it's a national epidemic among drug users, 
especially among the ethnic minorities.
    So the epidemic among drug users mostly happens in ethnic 
minority areas, like Yunnan, Sichuan, Guizhou, Guangxi, and 
Xinjiang. So in the urban cities among the Uyghur minorities, 
and also in other minorities, AIDS infection is very high, as 
high as 50 percent of injecting drug users among Uyghur 
migrants in Beijing might have been infected. It's a national 
phenomenon.
    So another epidemic is like in the mid-1990s and it's among 
blood donors. It mostly happened in central China, like the 
Hunan Province. After the infection among blood donors, a lot 
of people who received a blood transfusion or received blood 
products have been infected. So most people suffered a lot in--
and in legal aid, and many of them have been jailed. So, I 
provided two documents about the hemophiliacs and also the 
blood victims. So those people took a lot of legal actions and 
petitioned for compensation, and many of them have been 
detained and arrested on different types of criminal charges. 
So now there's a third wave of epidemic among the gay 
communities. Yes.
    Chairman Dorgan. All right.
    Just two very brief questions, and then I'm going to go on 
to others. You have not sought political asylum in this 
country.
    Dr. Wan. No.
    Chairman Dorgan. All right. Do you believe, given the 
fact--I think the New York Times did a very substantial story 
about your work in China and you now have volunteered to come 
and speak about your experience here publicly in Washington, 
DC. Do you believe you would run into significant difficulty 
going back to China?
    Dr. Wan. Yes. Without testimony here, I think even if I go 
back to China I would be in a difficult condition for now. But 
I think it's possible for me to go back to China in the coming 
future. The Chinese civil society and democratic forces are 
developing rapidly, and I think it's a key moment for Western 
societies to give a hand to support human rights and defending 
civil society organizations and the general democratic parties 
in China. Yes.
    Chairman Dorgan. This is an important moment, I think, for 
a lot of reasons. But I would just say we've had others testify 
before our Commission who have given testimony much more 
aggressive than yours. You've been pretty straightforward about 
your experience. The fact is, you do not gain much favor in 
China by doing so and I think risk arrest upon going back to 
China. We appreciate, for that reason, your courage to come and 
to share with us your experience.
    I want to ask a couple of questions of the other panelists 
as well. Mr. Cohen, perhaps you first, then the others. How 
much of this political imprisonment that we talk about--Gao is 
a good example, but there are many others that we've just 
described--is directed from Beijing and from the central 
government as opposed to being driven by errant local law 
enforcement officials or political officials at the local 
government who believe they're serving the best interests of 
their centralized Communist government by taking a look at 
these NGOs and these individuals as being suspect or deserving 
harassment? So, how much of it is directed, do you think, from 
Beijing?
    Mr. Cohen. There are different levels to appreciate. One, 
is the central-local level. The center classically enunciates a 
policy or a law that's an enlightened one. The local people 
frustrate it. That's the traditional Chinese saying: The center 
has its policies, the locality has its methods of avoiding 
them.
    So there are terrific tensions in China along those lines. 
The Ministry of Public Security, for example. Under its 
previous head, who is now head of the country's Political Legal 
Committee, the ministry took many measures to try to strengthen 
their control over the local police. Similarly, with the 
courts, the central court apparatus does not enjoy strong 
control over the local courts. It's very different from Japan, 
where you have a central secretariat that moves judges around 
like chess pieces, that appoints them, that pays them, promotes 
them, and if necessary, disciplines them. So there is a 
legitimate central-local problem.
    But it goes beyond that because often the center puts out 
conflicting policies. On the one hand, it says you must observe 
the following niceties in protecting people with respect to 
enforcement of birth control laws. It tells that to local 
officials. At the same time, it puts out policies that say to 
local officials, if the number of births in your district 
exceeds x, you're going to be fired. So it tells them on the 
one hand, always observe the law. On the other hand, they feel 
if they do observe the law, the number of births will exceed x. 
So, then they have to choose. Do they observe the central law 
or do they violate the central laws on criminal law and 
criminal procedure and abuse a lot of people to make sure the 
goal of no birth reaches x, and they usually choose the latter. 
So it's a conflicting central policy.
    The third confusing aspect is, who is the center? The 
center often has conflicting agencies, they have conflicting 
policies. Who are you going to listen to? One ministry may take 
one position, another ministry may take another position. You 
find even struggles between the court and the procurator, for 
example.
    Chairman Dorgan. But is there any doubt, for example, Mr. 
Rosenzweig, that the case of Mr. Gao, and many others here, and 
in the database, that the prosecution of these high-profile 
cases is supported by, and perhaps directed by the central 
government?
    Mr. Cohen. I don't have any doubt whatever. They may not 
have started that way.
    Chairman Dorgan. Right.
    Mr. Cohen. But once they rise to the level of visibility of 
concern here and elsewhere, these are national policies. When 
they started with the ``blind man,'' whose picture I'm glad to 
see you have, Chen Guangcheng, I tried to see, it was a local 
persecution only.
    I wrote an article in the Far Eastern Economic Review that 
was an open plea to the Ministry of Public Security: Is this 
what you want your local public security people to do? Is this 
how China is going to demonstrate to the world how civilized it 
is? I asked them, in effect, to intervene. There were meetings 
between the center and the province and the locality. There 
were meetings in the provincial capital, apparently. But in the 
end, the local people prevailed.
    For political reasons, the center didn't want to be seen to 
be interfering with the important birth control policy. But 
when it gets to this level, the center makes the decision. But 
who is the center? It's not the Ministry of Foreign Affairs 
that can't even give you a straight answer about what happened 
to Gao. They're constantly asking the Ministry of State 
Security, what should we tell the foreigners? We have a press 
conference tomorrow. What are we going to say? Then they are 
given lines to read, some of which are just facetious. They're 
ridiculous, or they would be if it weren't so serious.
    Chairman Dorgan. When this Commission, or when I write to 
the Chinese Ambassador to the United States a specific letter 
or set of letters about specific prisoners, in this case Gao, 
my assumption is that those official communications from the 
U.S. Government go to the central government in China. While 
the cases may have emanated somewhere else, may have started 
somewhere in the provinces, the justification for and the 
defense of what the Chinese have done with Gao, that decision 
is made at the central government, my guess is.
    Mr. Rosenzweig, you have been very helpful to us as well 
with information about Chinese prisoners. I asked you about 
trends. What kinds of things can we do at this point to 
continue to drive a higher profile on this issue of human 
rights in China and our great concern about the treatment of 
these individual prisoners?
    Mr. Rosenzweig. Well, there's some structural things that 
can be done--Professor Cohen has mentioned this as well--with 
regard to the human rights dialogue. Increasing the frequency 
of the human rights dialogue, I think, would be an important 
step to take, not only to signal the importance with which the 
United States treats human rights issues in China and treats 
these cases of political imprisonment in China, but also to 
allow for the development of better working relationships with 
Chinese interlocutors that may yield better results.
    The fact that the human rights dialogue has not been active 
over the past several years, I think, has created a situation 
where communications between the two governments on human 
rights issues have not gone very smoothly.
    One thing about the dialogue, I think, that would be 
important, something I feel somewhat strongly about, is, I 
guess, the tone of the dialogue. I think it's important, when 
we talk about engagement with China on human rights issues, to 
emphasize critical engagement, which doesn't mean, as Dr. 
Richardson says, agreeing to disagree. It means something quite 
different from that. It makes the disagreements that we may 
have on human rights issues part of the process and recognizes 
that the disagreements and working through those disagreements 
is necessary in order to achieve progress.
    And why that is important is because I think that over the 
past several years--and this is not only true of the United 
States, I think this is true of European governments as well--
there has been some confusion about how to engage with China, a 
rising China, as we say, on human rights issues when there are 
so many other things that we want to talk with China about that 
are also important, as important if not at some times more 
important than human rights issues, although I think human 
rights issues are so broad that human rights can be part of 
many dialogues.
    But I guess the thing that I want to say is that it's my 
feeling that the Chinese Government may not agree with us all 
the time on our positions with regard to human rights, but I 
think they respect a consistent message, as opposed to a 
message where we downplay human rights at certain times.
    I think that feeds into a sense that we, the United States, 
or our European friends, don't actually treat it as seriously 
as we say we do. So our consistency with regard to our 
commitments to human rights, I think, is perhaps one of the 
most important things that we as a government can do.
    Chairman Dorgan. I want to ask Dr. Richardson about the 
case of Xue Feng, an American businessman who is now in prison 
in China. My understanding is that he was arrested and then 
convicted of a law that was passed after he had been charged. 
This is an American businessman that was involved in a 
commercial transaction in China, a transaction that he was not 
aware was illegal.
    The information that he acquired in China, that is, the 
location of oil wells and so on, was apparently widely and 
publicly available in China for sale on Web sites. After he 
purchased that information, he was detained, and Mr. Cohen has 
talked about the abuses surrounding his detention and the need 
to change the U.S.-China Consular Convention to better protect 
American business people in China.
    That's a long question by way of asking, with more and more 
business being done in China by U.S. citizens, does this case 
portend some real concern about the future? Might some U.S. 
business people believing they're doing something that's 
perfectly harmless in China wind up in prison for those 
commercial activities?
    Ms. Richardson. I'll see if I can give you a 
straightforward answer to that question. Xue Feng's case came 
on the heels both of a roughly similar case against executives 
of the Australian mining company, Rio Tinto, and the primary 
person in that case who was accused was a naturalized 
Australian Chinese. The other three were Chinese citizens. The 
lead protagonist there was also charged originally with state 
security crimes, and those were later ratcheted down to 
economic espionage crimes.
    But these are the kinds of cases that we've seen more where 
businessmen who were engaged in activities they seemed to 
think, ostensibly, at least, are legal, then to find out the 
hard way that somebody doesn't agree with them about that. One 
of the alarming aspects of the state secrets laws in China is 
that they're incredibly elastic and they can be used to charge 
people for all sorts of behavior for which they can't even see 
the evidence that's presented against them. They can't have 
access to counsel or family members. These are real problems 
that I think we will see more business people bump up against.
    At the same time, it's probably also worth mentioning that 
earlier this year the Chinese Government, or it was at the very 
end of 2009, for the first time in 50 years, the Chinese 
Government executed a foreigner, a British man of Pakistani 
descent who was desperately psychiatrically unwell and who had 
been found guilty of trafficking drugs. He, too, was not given 
the kind of consular access he should have been. He was not 
given access to appropriate physicians. The British Government 
intervened to no avail.
    We have all sat here and talked a great deal about the 
kinds of abuses that the Chinese Government regularly metes out 
against its own citizens. I think people should pay more 
attention to the fact that we're starting to see some of those 
abuses be meted out against other people's citizens, too.
    Chairman Dorgan. Let me ask, why would the work of Dr. Wan 
be targeted in any particular way? Dr. Richardson, you are 
observing this from the outside. Why on Earth would the Chinese 
Government take a look at a group of people that are working on 
HIV/AIDS and decide there might be problems with respect to 
running afoul of the government dictates here?
    Ms. Richardson. Well, I think it goes back to a comment 
that you made in your opening remarks, Senator, about how 
today's political prisoners are perhaps tomorrow's leaders, 
that some of the people we're seeing persecuted are precisely 
the kinds of people who have the inclinations and the expertise 
and the organizational capabilities to address some of the most 
pressing problems inside China. Why are they perceived as a 
threat to the government? What they do is embarrassing. It 
shows ways in which the central government has failed to answer 
certain kinds of problems, or even acknowledge that they exist.
    In some instances, these organizations' work exposes 
evidence of local corruption. It's not immediately controlled 
by the local authorities and that can sometimes unnerve them. 
In a style of 
government that really knows only two strategies to deal with 
problems, which is either to co-opt them or to crush them, what 
we've seen is these organizations essentially getting shut down 
instead of being put to work for comparable purposes to what 
the government says it wants.
    Chairman Dorgan. Mr. Cohen? And then I'm going to come back 
for a further question of Dr. Wan.
    Mr. Cohen. I wanted to help answer your initial questions 
about the American businessman of Chinese descent. First of 
all, in these cases, state secrets and similar ones, it's 
impossible for the outsider to know what has taken place. Was 
the conduct harmless, was it not harmless? There is no way to 
know. Documents he's accused of acquiring were not labeled 
``secret.'' There was no obvious way. After the person is 
detained, the police get a certification from the National 
State Secrets Bureau that says, ``Yes, these are state secrets. 
He should have known about it.''
    Then comes the court hearing. Are you allowed to see the 
documents? Are you allowed to challenge whether or not they 
should be state secrets? Can you produce witnesses? Can you 
cross-examine those who certified the documents as secrets? 
None of those things is possible. It's an ipse dixit. You're 
told, this is it, you should have known it. It isn't the law 
that was changed. The law is so broad, change or not is 
irrelevant. It's the application of the law by the agencies 
involved and it's an ex post facto declaration that is 
unchallengeable. This is a state secret.
    Now, if there were transparency, if you had an open trial, 
if you had a fair opportunity for defense, then there'd be some 
way to say, were these state secrets or not? Was this man 
damaging the interests of China or not? But we don't have that. 
That is a very sad situation.
    Second, I should say we have to be aware that our own 
conduct influences Chinese perceptions. We can't merely preach 
at them, that they're not playing by the rules or they're 
losing by the failure to play by the rules. I personally feel, 
if China were transparent, people would see some of these cases 
do involve violations by any government's point of view. I've 
been involved in a number of these cases.
    In some, the persons involved were spying for Taiwan. But 
nobody believes that in the outside world because the 
procedures are so unfair. We lump all these cases, and the 
people come out of China later with political help and portray 
themselves as legitimate scholars, hiding the fact of what they 
did, and China enables them to do it by this self-defeating 
Chinese policy of secrecy.
    The other point is, our own government's behavior can 
really affect this. I was shocked to see that, in looking into 
the question of Chinese conformity to its obligations under the 
consular convention, that the U.S. Government is a rampant 
violator of consular conventions with other countries, not 
necessarily with China.
    But when they see hundreds of cases where State and Federal 
Governments fail to notify detained foreigners, you have a 
right to contact your consulate, and fail to notify the 
governments of those detained people, you have a right of 
access to these people, even in death cases, what can people 
think of us? So it's not a simple question of only looking at 
China. We can't say ``do as I say, not as I do.'' International 
law is based on reciprocity.
    Chairman Dorgan. The mechanisms exist in this country to 
raise very serious questions in a significant way about 
practices in this country. The same is not true in China, and 
that seems to me the significant difference.
    Dr. Wan, what do people in China, ordinary folks, know of 
the things we've been discussing here today? Do they know of 
the case of Gao Zhisheng? Do they know of the case of Chen 
Guangcheng, and other high-profile cases, or are they unaware 
of these men because there's not much information on them 
inside the country of China?
    Dr. Wan. Most people receive information through the 
Internet, through social groups, emails. I think civil society 
organizations play a very important role to keep communication 
in these communities. So although most civil society 
organizations are nonpolitical, they play a really important 
role of networking and information sharing. So in general, 
people may not know the case of Liu Xiaobo or Gao Zhisheng, but 
many people on the Internet, people who are active on the 
Internet, they know the information. A lot of activists work on 
the cases.
    Chairman Dorgan. Mr. Rosenzweig, can you give me some 
information about the number of Tibetans who may have been 
detained based on the protest that started in March 2008? Do we 
have any idea of what the consequences of that event have been?
    Mr. Rosenzweig. I wish I could give you numbers that I 
would feel comfortable with, concrete numbers about that, but I 
can't. As we have said this morning numerous times, the 
empirical basis for our discussions of these questions is quite 
limited and to a large extent we are forced to rely on 
anecdotal evidence, combined with this limited data.
    What I can say is that, based on the statistics that we've 
seen over the years and that we've collected over the years, it 
is clear that, for example, in the first half of the last 
decade, state security cases involving Uyghurs represented as 
much as two-thirds of the total in the country. This is in a 
normal year, by which I mean a year without a major uprising.
    The fact that in 2008 we had an incident in Lhasa that grew 
to spread throughout the Tibetan plateau over a long period of 
time, where you had repeated reports of individuals being 
detained for taking to the streets and protesting--and when I 
say taking to the streets and protesting, for the most part I 
mean peacefully protesting, going out and shouting statements, 
handing out leaflets.
    Then the following year, in Urumqi, an initial 
demonstration that turned into a very violent demonstration, 
for which many people have been detained. The fact that in 
these two years you've had incidents of that scale only 
increases the likelihood that we're talking about most of these 
detainees on state security charges being either Tibetans or 
Uyghurs. We're talking numbers well into the hundreds in both 
years.
    Chairman Dorgan. Mr. Cohen, you have been observing China 
back to the 1960s, as I understand it, and written about it. 
Give me your assessment of where we are at this point. We're 
having a hearing about human rights abuses and political 
prisoners. Still, in all, these issues are a subset of a 
country that has changed enormously.
    So give me your assessment of where we are with China, what 
you expect these human rights abuses to mean to the future of 
China. Give me your assessment.
    Mr. Cohen. The Party is the victim of its own conflicting 
policies. It's a paradox. On the one hand, since December 1978 
when Deng Xiaoping and company decided they needed to have a 
great economic development, they decided they needed a formal 
legal system--not one that would subject themselves to law, but 
would 
create a legal system. They had virtually nothing then.
    In 30 years, what they have done is impressive in terms of 
laws, regulations, other norms that come from international 
agreements, bilateral and multilateral, in terms of the 
reestablishment of strong institutions like the courts, the 
prosecution, arbitration organizations, in terms of legal 
education, which was nothing when I first went to China.
    I remember in 1973, writing in the Harvard Law School 
Bulletin, ``The first thing to know about the Chinese legal 
system, legal education, is that there isn't any legal 
education.'' Now you have over 700 law departments and law 
schools, hundreds of thousands of people imbibing the rule of 
law ideology, often American style, 
because the tens of thousands of law professors they now have 
essentially believe in what we have accomplished and what other 
democratic countries have accomplished.
    You now have about 200,000 judges, 180,000 prosecutors, 
170,000 lawyers, hundreds of thousands of legally trained 
people who, while not called lawyers, are staffing government 
agencies at every level in China. You have these law professors 
who are influential law reformers. Every business now that 
amounts to anything has to have legal advice, many of them have 
in-house counsel.
    In other words, in 30 years there is an overlapping series 
of legal elites that didn't exist before. This is a broad 
constituency for law reform. Things are bubbling up, and these 
are the people, many of whom are frustrated by the post-17th 
Party Congress--you might say conservative, or I might say 
reactionary--line.
    They're upset by being displanted, supplanted by Party 
hacks taking over their jobs. So this is impressive. The 
leadership has responsibility for creating this system and they 
have amended the Constitution to foster human rights, to 
respect property rights, et cetera.
    On the other hand, three days a week they tell their 
people, don't take all this seriously. This is all bourgeois 
stuff. We will have our socialist rule of law with Chinese 
characteristics, and that means no real rule of law in the 
sense of law governing government officials. So it's a paradox. 
The intensity of that paradox is increasing.
    It makes me go back to the original Hegelian-Marxist-
Leninist thought which I never had much interest in about the 
unity of opposites, because you have two opposite trends in 
China now. They're increasingly coming into conflict. Although 
social-economic conditions are better, significantly better, 
those very successes breed more people who were dissatisfied.
    Chairman Dorgan. It seems to me that the ``opening'' of 
China, going back some decades now, precipitated a series of 
changes you've just described. One, is the desire and the 
development of a market system to participate in the world 
economic order, at the same time, even as you develop a market 
system, you continue a Communist government with Communist 
control. There are certain tensions that are automatic with 
respect to that.
    When you begin to integrate with the rest of the world in a 
market system, inevitably your institutions come under 
scrutiny, and should, and must. Because if we're going to do 
business there, we need to understand, with what capability can 
we do business and believe that business agreements will be 
honored.
    Chairman Dorgan. I was in Hanoi, Vietnam at one point, 
speaking with the head of the Vietnam government, a Communist 
government, and then met with the American Chamber of Commerce 
in Hanoi. One of the things they said is, ``We need more 
government here in Vietnam,'' the American Chamber of Commerce. 
I said, ``Well, that is an unusual kind of request by a Chamber 
of Commerce group.'' They said, ``What we mean by that is you 
can't do business in areas unless you have the ability to write 
contracts, have administrative law, go to court to enforce 
agreements, and so on. It's the only way you can really do 
business.''
    So when you open up a country like China or Vietnam, you 
must have those kinds of capabilities in place and the 
institutions with which to enforce the rule of law. Then those 
institutions will come under intense scrutiny. That's what is 
happening here.
    That's why we have circumstances where substantial things 
have changed, China has moved, no question about that, the 
standard of living for the average Chinese has improved some, 
and we understand all the impact of that on the world.
    There are probably several hundred million people in China 
who now aspire to drive an automobile at some point, and will 
be looking for a gas station once a week as well, just as they 
see the rest of the world doing. So all of these things have an 
impact on us, on China.
    This issue of, with more scrutiny on their institutions, 
which should happen and is happening, and then the scrutiny of 
people like this sitting in the darkest prisons in the world on 
charges that ran them off to prison because they dared question 
their government. Is that of interest to our country? Sure it 
is.
    I think what all of you have said today is that our 
relationship with China must be a relationship in which we 
understand our mutual responsibilities and we understand the 
economic alliances and various things that we do together, but 
we should always, in our relationship with China, continue this 
scrutiny with respect to the way its institutions are working 
and continue to press the issue of human rights.
    We have gone into a circumstance where it's kind of up and 
down, hills and valleys, on whether we're engaged in human 
rights questions with respect to China in our normal 
discussions or whether we kind of give human rights the 
backseat treatment. There ought not be a case where our 
relationship with China does not always press the issue of 
human rights. That should be our requirement.
    That is our responsibility, in my judgment. If you are 
going to be a player in this world on the world stage, and 
China certainly is, then we believe there are certain 
responsibilities that attach to that position. That is the 
purpose of this Commission, as I indicated earlier, to keep the 
records and the stories of those unfortunate people who are now 
in prison in China as political prisoners, and to also address 
a range of other issues.
    I wanted to just conclude today by saying that all of you 
have extensive experience, and I appreciate very much your 
willingness to contribute your thoughts and your experience to 
the Commission's efforts to understand and evaluate this 
relationship and where it's been and where it's heading. Your 
sense is very important.
    Dr. Wan, you perhaps bring more to this table in terms of 
your personal safety and your own future than the other three. 
The other three witnesses do their work in safety. If you 
attempt to go back to China, I assume you have to worry about 
your personal safety, so we thank you very much for your 
courage and your willingness to speak out today.
    We thank all of you very much for traveling here today to 
Washington, DC and being a part of this hearing.
    This hearing is adjourned.
    [The prepared statement of Representative Levin appears in 
the appendix.]
    [Whereupon, at 11:59 a.m., the hearing was adjourned.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Jerome A. Cohen

                             August 3, 2010

    Chairman Dorgan and Co-Chairman Levin:
    I am grateful for the opportunity to participate in this Hearing as 
well as for the Commission's invaluable contributions to American 
understanding of China.
    Today's topic--``Political Prisoners in China: Trends and 
Implications for U.S. Policy''--is as broad as it is important. Because 
introductory statements are necessarily brief, I will only emphasize 
several significant points and am confident that my distinguished 
colleagues will provide more comprehensive coverage.

                        WHAT IS ``POLITICAL? ''

    The Chinese government generally denies that any of its criminal 
prosecutions are ``political.'' People are supposedly convicted for 
violating specific provisions of the Criminal Law, not for their 
political conduct. Yet some provisions of the Law are so vague and all-
encompassing that it is a simple matter to charge democratic activists 
and a huge range of peaceful protesters with their violation, 
especially since the courts are under Communist Party control.
    For example, for trying to exercise the freedoms set forth in 
China's Constitution, many people have been convicted of ``endangering 
state security.'' We know names such as Liu Xiaobo and Hu Jia, but the 
non-transparency of China prevents an accurate accounting. The 
statistics we do have, however, indicate a troubling trend.
    Many people who initially had no interest in political reform 
became ``political'' offenders when the government suppressed their 
efforts to protest property deprivations, labor abuses or religious 
restrictions. Even lawyers who were not originally ``political'' have 
been sent to prison for too effectively representing protesters, 
activists and other controversial clients.
    But ``political'' can also embrace many other types of cases. I am 
sure that the American petroleum geologist Xue Feng, who last month was 
sentenced to eight years in prison for ``gathering intelligence'' and 
``unlawfully sending abroad state 
secrets,'' thought he was engaging in commercial activity when he 
helped his employer, a leading U.S. oil consulting company, purchase a 
database regarding oil 
resources. Yet his case became ``political'' because of its inevitable 
impact on Sino-American relations and international business.
    To take a very different situation, China's leadership politics was 
reportedly involved in the recent prosecutions of organized crime 
figures and officials who allegedly corrupted the city of Chongqing.
    There are multiple reasons why the Chinese call their system for 
administering justice a ``political-legal'' system.

POLITICAL TRIALS ARE MARRED BY EVEN MORE UNFAIRNESS THAN NON-POLITICAL 
                                  ONES

    Despite the dedicated law reform efforts of many Chinese officials, 
judges, lawyers and scholars, criminal justice is still the weakest 
link in the country's burgeoning legal system. Gradually, some 
improvements in the Criminal Procedure Law and Criminal Law continue to 
be made, even in China's current very conservative political climate. 
But in non-political cases as well as political ones, law enforcement 
agencies frequently violate their country's laws or interpret them in 
ways that defeat legislative purposes.
    Justice in non-political cases is often marred by arbitrary arrest, 
illegal search, extended incommunicado detention, torture and coerced 
confession, barriers against defense lawyers who seek to meet their 
detained clients, gather evidence and learn the prosecution's case, and 
failure to require prosecution witnesses to come to court or to allow 
defense witnesses to appear. There are also the distorting effects of 
widespread corruption and protean ``guanxi,'' the networks of personal 
relationships that are a dominant feature of Chinese life.
    Political trials feature the same abuses plus additional ones. 
Often they are closed to all but defense counsel, and even when 
``open'' they are restricted to selected auditors. Lawyers who wage a 
vigorous defense at trial risk sanctions against themselves, including 
disbarment and prosecution. Court leaders rather than trial judges 
usually make ``sensitive'' decisions, and the local Party political-
committee generally controls the entire process.

                        WHO ARE ``PRISONERS? ''

    Punishment of political offenders is not confined to criminal 
cases. Political offenders are often severely punished outside the 
formal criminal justice system. Police do not need to ask any 
prosecutor or judge for approval before they sentence someone to up to 
three years of ``reeducation through labor'' or subject them to similar 
supposedly ``non-criminal'' sanctions.
    Persistent critics and petitioners with legitimate grievances 
regularly suffer even less formal but harsh punishments. Some are 
committed to mental hospitals, many more to notorious ``black jails.'' 
Moreover, many rights activists who nominally are ``free'' actually 
have their freedoms denied by low-visibility police harassment and 
surveillance that continue without end. Some civil liberties lawyers 
avoid prison but lose their right to practice law.
    Political offenders who have served their prison sentence suffer 
further constraints after release if they have also been sentenced to 
``deprivation of political rights'' for a period. Yet even after that 
deprivation has expired, they continue to be restricted, often confined 
to their home, without any legal authority or time limit, as is the 
case with unfrocked Shanghai lawyer Zheng Enchong. In effect they are 
``prisoners'' for life. I hope this will not be the fate of the blind 
``barefoot lawyer'' Chen Guangcheng when his sentence of four years and 
three months is completed in September. And at least one famous lawyer, 
Gao Zhisheng, after disbarment, torture and a prison term, has 
mysteriously been ``disappeared'' by the authorities, perhaps forever.
    The many Chinese democratic activists who live outside their 
country and are not allowed to return are also ``prisoners'' in a 
different way because they are excluded from their own society.
    So the definition of ``political prisoners'' is broad and 
complicated.

    FOREIGNERS ARE NOT IMMUNE TO THIS UNFAIR SYSTEM, ESPECIALLY IN 
                          ``POLITICAL'' CASES

    In announcing this Hearing, the Commission recognized the impact 
that criminal injustice can have on international commercial 
cooperation with China. Foreign business personnel as well as other 
foreigners are subject to the same inadequacies in China's criminal 
justice legislation as the Chinese people and to many of the same 
abuses that occur in implementing the laws, especially if their case 
becomes ``political'' for one reason or other.
    Although Americans and many other foreigners have some additional 
protections under bilateral and multilateral consular agreements that 
their governments have concluded with China, those agreements are 
themselves imperfect and are sometimes ignored in practice by the 
Chinese government.
    That is the significance of the now highly-politicized case of 
American citizen Xue Feng, which is currently on appeal. It illustrates 
not only some of the problems experienced by Chinese criminal 
defendants but also the operation of the U.S.-China Consular Convention 
that is supposed to alleviate some of those problems when Americans run 
afoul of Chinese law. I attach, as Appendix 1, an ``op-ed'' article 
that I recently published on the Xue case.

SHOULD THE U.S.-CHINA CONSULAR CONVENTION BE REVISED TO BETTER PROTECT 
                              INDIVIDUALS?

    The Xue case shows the need to consider amending the Convention in 
at least four ways that would enhance the protection of Americans who 
fall into the hands of China's law enforcers:

          (1) Reconfirm that the host state is required to notify the 
        sending state whenever one of the latter's nationals is placed 
        under ``any form of detention,'' as the Convention now puts it, 
        by spelling out the various forms of detention that China has 
        imposed on Americans over the thirty years of the Convention's 
        life, so there can be no excuse for failure to notify;
          (2) Reduce the maximum time allowed between detention and 
        notification to consular officials, and between notification 
        and the first consular visit;
          (3) Clarify that consular officials and the detainee have a 
        right to discuss any matters including the details of the 
        detainee's case; and
          (4) Confirm that consular officials have the right to attend 
        defendant's trial even if the trial is ``closed'' to the public 
        and family.

    Of course, the protection of individual rights is not the only 
factor to be considered when contemplating revision of the Convention. 
Under the Convention, Chinese nationals and officials are entitled to 
reciprocal consular rights in the U.S., and some U.S. federal or state 
agencies may object to the suggested proposals for enhancing individual 
rights because of their impact on the handling of criminal cases 
against Chinese in this country. Moreover, the Chinese government will 
have its own ideas about whether and how to revise the Convention.
    The Xue case revealed the need to improve one aspect of U.S. 
consular assistance to Americans detained in China. From their first 
visit with Xue, he reportedly asked consular officials to make his case 
known to the public. Although able and conscientious, they declined to 
do so, because his wife wished to keep the matter confidential. Thus, 
for two years Xue lost the potential benefits that publicity might have 
brought him. In future cases, our consular officials should honor the 
detainee's wishes in this respect unless there is strong reason to 
doubt his mental stability.
    One additional benefit of seeking renewed U.S. government attention 
to consular issues with China is that it will remind many members of 
the Executive Branch and the Congress, not to mention the American 
people, of the appalling record of both our federal and state 
governments in complying with the multilateral and bilateral consular 
commitments we have made to many countries. The long-standing, 
irresponsible U.S. failures to notify foreign governments of their 
nationals' detentions, and foreign detainees of their rights to contact 
their governments, even in capital cases, place us in a poor position 
to ask for compliance by other countries. Although the U.S. government 
has taken steps to rectify this stupefying contempt for international 
agreements and international law, the topic deserves detailed 
Congressional and public scrutiny. I attach as Appendix 2 to these 
remarks an ``op-ed'' article that I will publish tomorrow about the 
U.S.-China Consular Convention.

   ``POLITICAL PRISONERS'' AND THE OFFICIAL U.S.-CHINA HUMAN RIGHTS 
                               DIALOGUES

    It is good news that the Obama and Hu Jintao administrations have 
renewed the official bilateral human rights dialogue and agreed to 
revive the official ``experts' dialogue.'' It is regrettable that these 
meetings have often been postponed and in any event proceed at a 
glacial pace inappropriate to the urgency of the problems. Like 
discussions that other Western governments have conducted with China on 
human rights, these discussions have been generally disappointing, at 
least to most outside observers. Perhaps greater transparency might 
give us a more favorable view, but I doubt it. I am glad that the 
Department of State is earnestly seeking new methods of investing these 
dialogues with greater significance. Heaven is wonderful, but the 
problem is how to get there!
    I believe that both official dialogues should take place every 
quarter. The traditional desultory, and often interrupted, pace, has to 
be quickened. Moreover, joint committees should be established on 
various important topics, including those we discuss today, and they 
should operate on a continuing basis and prepare reports for advance 
submission to participants in the quarterly meetings. Although the 
Chinese side shies away from discussion of concrete cases, analysis of 
actual cases illuminates human rights problems more than consideration 
of abstract principles.
    Higher level, responsible leaders should take part in these 
meetings, not merely to symbolize that the governments take these 
matters seriously but also to bring the matters to the attention, and 
increase the understanding, of the highest leaders and their staff, 
those who make decisions.
    Is it too much to hope that, on the Chinese side, one quarterly 
meeting might involve the leader of the Central Party Political-Legal 
Committee, usually a member of the Politburo Standing Committee, or one 
of his key deputies? After all, they really run China's legal system.
    Is it unreasonable to expect the participation of the President of 
the Supreme People's Court in another quarterly session and of the 
Procurator-General and the Minister of Justice in other sessions?
    Of course, the United States would have to produce their 
counterparts, and in a meaningful way. But aren't the human rights of 
1.4 billion Chinese and 300 million Americans worth a higher priority 
than either government has given them to date?
    Thank you for the opportunity to present a few thoughts. I look 
forward to the statements of the other panelists and our discussion 
with the Commission.

                               Appendix 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Appendix 2

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

                Prepared Statement of Joshua Rosenzweig

                             August 3, 2010

    Mr Chairman, I am privileged to be invited to participate in this 
hearing and I would like to thank you, your fellow commissioners, and 
the CECC staff for inviting me. Today I represent The Dui Hua 
Foundation, which has been engaged for more than a decade in an effort 
to uncover the names of individuals imprisoned in China for the non-
violent expression of their political and religious beliefs. Our 
database of prisoner information includes the names of roughly 22,000 
persons imprisoned for these reasons since 1980, of which more than 
5,800 form an ``active registry'' from which we develop prisoner lists 
designed to raise individual cases directly to the Chinese government 
and encourage better treatment and early release.
    Recent decades have seen China emerge as a global power, fueled by 
strong economic growth, its importance as a trading partner, and its 
key diplomatic role with regard to trouble-spots such as North Korea, 
Sudan, or Iran. During this period, many Chinese have enjoyed 
substantial improvements in living standards. To many developing 
countries, China serves as a model for the delivery of basic education 
and health care. Though not without caveats--for instance, the 
ballooning gap between rich and poor--China's substantial progress in 
these areas cannot be denied. However, progress in the area of civil 
and political rights has unfortunately not kept up with economic and 
social development.
    Over the past 2\1/2\ years in particular, roughly since the 
beginning of 2008, there has been a palpable sense that earlier 
progress towards rule of law in China has stalled, or even suffered a 
reversal, and there is mounting evidence that a crackdown is underway, 
one particularly targeting members of ethnic minorities, government 
critics, and rights defenders.
    One manifestation of this can be seen in the recent sharp increase 
in criminal proceedings for ``endangering state security'' (ESS) a 
category of crime that includes vaguely defined and arbitrarily applied 
offenses such as ``splittism,'' ``inciting subversion of state 
political power,'' and ``trafficking in state secrets for overseas 
entities.'' ESS arrests more than doubled in 2008 compared to the 
previous year, and more arrests and indictments for ESS were carried 
out in China in 2008 and 2009 than in the entire five-year period from 
2003 to 2007.\1\ In China, arrest almost inevitably leads to trial and 
trial to conviction. The most recent official statistics suggest that 
as many as 1,500 Chinese were convicted on state security charges in 
2009--more than 3\1/2\ times the number convicted for ESS in 2004.\2\ 
(Data for the period from 1998 to 2009 are included in the appendix to 
this statement.)
    Moreover, China's Supreme People's Court reports that these 
individuals are being punished more harshly, with a 20 percent increase 
in sentences of at least five years' imprisonment in 2009.\3\ One of 
these harsh punishments was handed down to Liu Xiaobo, whose 11-year 
sentence for penning a few essays critical of the government and 
helping to draft the ``Charter 08'' political manifesto is the longest 
sentence known to have ever been handed down in China for the crime of 
``inciting subversion.'' \4\ And statistics suggest that a majority of 
those punished on state security charges are members of the Tibetan and 
Uyghur ethnicities, many of whom were detained for engaging in non-
violent protests against government policies.\5\
    But we mustn't limit our concern to formal criminal proceedings on 
state security charges, because there are other kinds of political 
imprisonment in China. Charges of ``illegal business activity'' are 
used against the publishers of politically themed books or distributors 
of Bibles.\6\ Muckraking journalists and environmental activists are 
charged with ``extortion'' or ``fraud,'' and bloggers who criticize 
corruption or wrongdoing by local officials can find themselves 
imprisoned for ``defamation.'' \7\ Countless practitioners of Falun 
Gong or members of unauthorized Christian sects are locked away for 
``using a cult to undermine implementation of the law'' and subjected 
to specialized regimes of discipline and re-programming.\8\ And I have 
not even yet mentioned the system of administrative incarceration known 
as ``re-education through labor,'' in which so-called ``minor 
offenses'' can be punished for up to three years without proper trial 
and without legal counsel--a system whose survival despite violating 
Chinese law testifies to its expedient value to the preservation of 
stability.\9\
    The targets of political repression can expect no constitutional or 
legal guarantee that their rights will be protected during the 
proceedings against them. The geologist Xue Feng, an American citizen, 
was held incommunicado and subjected to physical and psychological 
abuse as police failed to honor their obligations under China's 
consular agreement with the United States, and he languished in 
detention for more than two years while procedural deadlines were 
repeatedly ignored.\10\ Defense lawyers face obstacles in their 
attempts to fulfill basic duties, such as meeting with 
detained clients and getting access to prosecution evidence, and their 
eloquent, reasoned defense statements fall on deaf ears in the 
courtroom while decisions against their clients are made by external, 
Party-dominated ``adjudication committees,'' sometimes before a trial 
has even begun.\11\
    Once imprisoned, these individuals are seldom offered any clemency, 
victims of a penal system that equates good behavior with 
acknowledgment of wrongdoing and requires that sentence reduction and 
parole for those convicted of endangering state security be ``strictly 
handled.'' \12\ Compared with a decade ago, fewer of the individuals 
whose cases are raised with the Chinese authorities by Dui Hua or 
through the bilateral human rights dialogues are seeing any changes to 
their sentences--a situation that is especially true for Tibetans and 
Uyghurs. This extends to medical parole, even for gravely ill 
individuals like Hu Jia, who suffers from serious liver disease, or Li 
Wangyang, an activist who has spent nearly all of the past 21 years in 
prison, much of that time hospitalized because of poor health. On the 
rare occasion when medical parole is granted to political prisoners, it 
tends to be as in the case of Zhang Jianhong, whose health under the 
burden of neuromuscular disease deteriorated to the point where he was 
unable to breathe without the assistance of a machine.\13\
    Perhaps the most outrageous--and telling--example of China's 
worsening human rights environment has been the government's failure to 
provide a credible accounting of the whereabouts of Gao Zhisheng, the 
outspoken rights lawyer whose repeated criticism of government policies 
and defense of Falun Gong practitioners and political activists 
ultimately landed him a 2006 conviction on charges of inciting 
subversion by a Beijing court. Given a suspended sentence, Gao and his 
family were subjected to intense police surveillance, interrupted by a 
period of detention in late 2007 in which his captors allegedly 
tortured him so severely that friends said it left him ``a broken 
man.''
    In February 2009, shortly after Gao's wife and two children left 
China to seek asylum in the United States, Gao disappeared. We now know 
that for more than a year, he was secretly shuttled from location to 
location and kept under police custody, during which time he was 
subjected to physical and psychological abuse. After a sustained period 
of pressure by the international community, Gao mysteriously reappeared 
in Beijing this past April and gave two interviews: one, blessed by his 
captors, in which he announced to the Associated Press he was ``giving 
up activism'' and one during an unauthorized meeting with a small group 
of friends and diplomats in which he described in detail his ordeal 
over the past year.\14\ Several days later, Gao disappeared once more--
presumably again into the hands of security agents acting with reckless 
disregard for individual rights, rule of law, or the consequence of 
their actions on China's international image.
    I believe that what we are witnessing today is a manifestation of a 
Chinese leadership that, though it may exude confidence in its dealings 
with the outside world, sees mounting signs of instability at home in 
the form of petitioners seeking redress for grievances, growing numbers 
of mass incidents, eruption of long-simmering ethnic tensions in Lhasa 
and Urumchi, and the messy, hard-to-control Internet, with its channels 
for expression of critical opinion and transmission of uncensored news. 
A sense of imminent and perpetual threat has played into the hands of a 
hard-line, ``stability-above-all-else'' element in the leadership, one 
particularly associated with the security forces, the military, and the 
propaganda apparatus. Though the factors underlying these developments 
in China have been primarily domestic, confusion in the international 
community about how best to engage with ``rising China'' on human 
rights has clearly emboldened some Chinese leaders to pursue certain 
policies despite international opposition.
    For the time being, at least, China's leadership appears to be 
pursuing what the Chinese scholar Yu Jianrong has called ``rigid 
stability,'' instead of heeding the voices of those inside and outside 
the Party who advocate taking stronger steps toward establishment of a 
more legitimate rule-of-law system, one that would weaken the authority 
of the security forces and see Party oversight of court decisions 
receding in favor of a more independent judiciary.\15\ But as long as 
the perception remains of a high level of threat from ethnic 
separatists, hostile foreign forces, mass incidents, and political 
subversives, this hard-line faction will try to continue to hang on to 
its remaining strongholds long enough at least to have an influence 
over the formation of the new leadership group at the 18th Party 
Congress in 2012.
    Notwithstanding the strong position of the hard-liners, proponents 
of expanding civil rights and further developing rule of law in China 
still have a voice, particularly via the media. On a few occasions, 
backlash against local government officials' abuse of criminal 
defamation charges to prosecute critics of corruption and malfeasance 
have forced authorities to acknowledge they overstepped their 
authority.\16\ Major media outlets have been vocal in exposing serious 
problems such as the use of ``black jails'' to incarcerate petitioners, 
mysterious deaths of detainees in police-run detention facilities, and 
the torture of criminal suspects.\17\ There have been stirring calls 
for reform to the laws governing state secrets and household 
registration, and last month new rules took effect that should in 
theory prevent illegally obtained evidence and testimony from being 
used in criminal proceedings.\18\
    In short, there appears to be a constituency within the Party (not 
to mention among Chinese legal experts and practitioners and the wider 
population) that supports moving more resolutely along a path of 
reform, a group that may feel frustrated by the recent lack of progress 
on political reform and growing reliance on 
repression. An important goal of our collective human rights engagement 
with China should be to support the efforts of this constituency, 
particularly at such a moment when it may feel most embattled.
    At this point, I would like to offer the following recommendations:
    First, the bilateral human rights dialogue between the United 
States and China should be enhanced and expanded. To this end, we 
recommend:

          <bullet> Doubling the frequency of the dialogue to make it a 
        semi-annual event. This would facilitate the establishment of 
        relationships with Chinese interlocutors and better reflect the 
        importance the US government attaches to the human rights 
        situation in China. A semi-annual dialogue would also match the 
        frequency of China's human rights dialogue with the European 
        Union.
          <bullet> Ensuring that detailed, bilingual prisoner lists an 
        integral part of the dialogue process. It is also essential 
        that the US government hold China accountable for responding to 
        these requests for information in a sincere and timely manner.
          <bullet> Establishing a working group on the rights of 
        political prisoners. Thanks to efforts by the State Department, 
        China has agreed in principle to establish working groups as 
        part of the bilateral human rights dialogue. The United States 
        should actively follow up on this agreement and propose that a 
        working group be established on the rights of political 
        prisoners.

The United States must be prepared to engage China critically in the 
area of human rights. Disagreements can be expected, but engagement 
must be about more than simply ``agreeing to disagree.'' It should 
involve recognizing the value of substantive, critical discussion in 
which all parties are held equally accountable for their commitments to 
human rights under international law.
    Second, we further recommend that the United States play a more 
active role in the human rights institutions of the United Nations, 
including the Human Rights Council and its process of ``universal 
periodic review.'' I attended the Human Rights Council's February 2009 
review of China's human rights situation and was disappointed that the 
United States chose not to take the opportunity to raise its 
concerns during that process. Without stronger leadership and 
commitment to upholding international human rights law by the United 
States, there is real reason for concern that this important 
multilateral institution will continue to allow countries like China to 
defend their problematic rights records by appealing to ``unique 
national circumstances'' and the notion that some human rights are more 
fundamental than others. The United States should also help to ensure 
that the treaty-based bodies and ``expert-driven'' processes of the 
United Nations continue to play a vigorous role in the monitoring and 
protection of human rights in all countries, including China.
    Our third recommendation concerns taking better advantage of this 
Commission's fine Political Prisoner Database. In a 2008 visit to 
Beijing, Commissioner Christopher Smith and former Commissioner Frank 
Wolf handed over a list of Chinese political prisoners to the former 
Chinese foreign minister, Li Zhaoxing. This was the first time that 
members of Congress had handed over a list of prisoners derived from 
the CECC database. This database is an invaluable resource, expertly 
developed and maintained by Commission staff members, and we are proud 
to contribute information from our own database to this project on an 
ongoing basis. We would like to recommend that the Com-mission 
encourage members of Congress to make more frequent use of relatively 
short, focused lists as a routine part of their interactions with 
Chinese officials.
    In conclusion, Mr. Chairman, I'd like to take this opportunity to 
thank you for your leadership in this area and to pay tribute to the 
longstanding and close working relationship The Dui Hua Foundation has 
had with this commission over the past decade. I shall be happy to 
answer any questions you or other commissioners may have.

 Appendix: Selected Statistics on Political Crime in China, 1998-2009 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Source: Data for 1998-2008 come from China Law Yearbook (1999-2009). 
For estimates, see notes 1 and 2 below.

                                 NOTES

    \1\ See The Dui Hua Foundation, ``Official Data Show State Security 
Arrests, Prosecutions in China Exceeded1,000 in 2009,'' (12 March 
2010): http://www.duihua.org/media/press/statements/statement--on--
ESS--in--2009.htm.
    \2\ The Dui Hua Foundation, ``Supreme People's Court `Work Report' 
Indicates More Trials, Heavier Sentences for Endangering State Security 
in 2009'' (20 July 2010):http://www.duihuahrjournal.org/2010/07/
supreme-peoples-court-work-report.html.
    \3\ Ibid.
    \4\ Verna Yu, ``Liu's Sentence a Grim Warning to Dissidents,'' 
South China Morning Post (27 December 2009): A1.
    \5\ According to statistics collected from the Xinjiang Yearbook, 
ESS trials in the Xinjiang Uyghur Autonomous Region typically accounted 
for between one-half to two-thirds of the national total during the 
early 2000s. See The Dui Hua Foundation, Statistics on Political Crime 
in the People's Republic of China: Volume 3, Occasional Publications of 
The Dui Hua Foundation 23 (December 2006): 23-24. Provincial data and 
anecdotal evidence suggest that allegations of espionage may contribute 
another large portion of China's state security cases, especially in 
predominantly Han areas. See The Dui Hua Foundation, Reference 
Materials on China's Criminal Justice System 5 (June 2010): iii, 13-17.
    \6\ See, for example, documents related to the case of Yang Maodong 
(Guo Feixiong), in The Dui Hua Foundation, Selected Decisions From 
Chinese People's Courts, Occasional Publications of The Dui Hua 
Foundation 26 (June 2008) or the case of Shi Weihan, in ChinaAid, 
``Christian Shi Weihan Sentenced to Three Years in Prison for Printing 
and Giving Away Bibles'' (11 June 2009):http://www.chinaaid.org/qry/
page.taf?id=105&--function=detail&sbtblct--uid1=1212&--
nc=28225309e65c49b23121c31f64d3a39e.
    \7\ See, for example, the case of Qi Chonghuai, in Committee to 
Protect Journalists, ``Chinese Journalist Sentenced to Four Years'' (13 
May 2008): http://cpj.org/2008/05/chinese-journalist-sentenced-to-four-
years.php; the case of Wu Lihong, in The Dui Hua Foundation, Selection 
of Cases from the Criminal Law, Occasional Publications of The Dui Hua 
Foundation 27 (September 2008): 16-18; and the case of Fan Yanqiong et 
al., in Chinese Human Rights Defenders, ``Three Fujian Digital 
Activists Convicted as Thousands Gather in Landmark Protest'' (16 April 
2010): http://chrdnet.org/2010/04/16/three-fujian-digital-activists-
convicted-as-thousands-gather-in-landmark-protest/.
    \8\ See The Dui Hua Foundation (trans.), ``Notice Regarding 
Printing and Distribution of `Implementation Measures for Assessment of 
Education and Conversion of ``Falun Gong'' Prisoners,' '' Reference 
Materials on China's Criminal Justice System 5 (June 2010): 44-48.
    \9\ See The Dui Hua Foundation, ``Professors Yu Jianrong and Jiang 
Ming'an Spar Over Future of Re-Education Through Labor'' (9 July 2010): 
http://www.duihuahrjournal.org/2010/07/professors-yu-jianrong-and-
jiang-mingan.html.
    \10\ Charles Hutzler, ``Chinese Court Sentences US Geologist to 8 
Years,'' Associated Press (5 July 2010); Jerome A. Cohen, ``Justice 
Denied,'' South China Morning Post (21 July 2010).
    \11\ See The Dui Hua Foundation, ``A Day in the Life of a Chinese 
Defense Lawyer'' (9 July 2010):http://www.duihuahrjournal.org/2010/07/
day-in-life-of-chinese-defense-lawyer.html; Maggie Chen, ``Freedom of 
Speech Defence Bound to Fail,'' South China Morning Post (7 June 2010): 
A6; and The Dui Hua Foundation, ``Only in China: `Adjudication 
Committees' Serve Judicial System,'' Dialogue 39 (Spring 2010): 6-7.
    \12\ See The Dui Hua Foundation, ``Chan Yu-lam Sentence Reduction 
Sheds Light on How Prisoners Are Rewarded for Good Behavior'' (8 August 
2009): http://www.duihuahrjournal.org/2009/08/chan-yu-lam-sentence-
reduction-sheds.html
    \13\ See The Dui Hua Foundation, ``Systemic Sickness: Diagnosing 
the Ills of Medical Parole in China,'' Dialogue 39 (Spring 2010): 1-3.
    \14\ Charles Hutzler & Isolda Morillo, ``Crusading Chinese Lawyer 
Gives Up Activism,'' Associated Press (7 April 2010); Paul Mooney, 
``Beijing's Mafia Justice for Lawyer They Won't Lock Up but Can't Set 
Free,'' South China Morning Post (13 June 2010): A12.
    \15\ See China Digital Times, ``Yu Jianrong: Maintaining a Baseline 
of Social Stability'' (6 March 2010):http://chinadigitaltimes.net/2010/
03/yu-jianrong-maintaining-a-baseline-of-social-stability-part-i/ 
(first of a multi-part series of translations).
    \16\ See Joshua Rosenzweig, ``China's Battle Over the Right to 
Criticize,'' Far Eastern Economic Review (May 2009): 12-15.
    \17\ Andrew Jacobs, ``A Rare Chinese Look at Secret Detentions,'' 
New York Times (27 November 2009): A10; Human Rights Watch, ``An 
Alleyway in Hell'': China's Abusive Black Jails (12 November 2009); The 
Dui Hua Foundation, ``Zhejiang Daily Compiles Morose Compendium of 
`Unnatural Deaths' in Detention'' (25 June 2010): http://
www.duihuahrjournal.org/2010/06/zhejiang-daily-compiles-morose.html; 
The Dui Hua Foundation, ``Zhao Zuohai Case Provokes Responses on Legal 
Protections from Chinese Public, Government'' (2 June 2010): http://
www.duihuahrjournal.org/2010/06/zhao-zuohai-case-provokes-responses-
on.html.
    \18\ These rules have been translated by The Dui Hua Foundation: 
http://www.duihua.hk/hrjournal/evidence/evidence.htm
                                 ______
                                 

                    Prepared Statement of Wan Yanhai

                             August 3, 2010

    Senator Byron Dorgan, Commissioners:
    I am Wan Yanhai, director of Beijing Aizhixing Institute. I have 
been working on HIV/AIDS prevention and care for 20 years, since 1990. 
Our organization, Beijing Aizhixing Institute, or Beijing Aizhi Action 
Project, has been working on HIV/AIDS, human rights, and civil society 
development for 16 years--since 1994.
    In the summer of 1994, I had a meaningful conversation with a 
psychiatrist in Beijing that influenced my philosophy about serving the 
people. When mentioning being monitored by security agencies in China, 
I said that I didn't care and I could still manage my work from jail. 
The senior doctor said that if I am sacrificed, nobody benefits; and if 
I am sacrificed, I will not be able to work. It is a loss. To continue 
to carry out my work that is helpful to others, I need to protect 
myself.
    This philosophy has guided my approach to dealing with security 
agencies in China. Through great effort and careful attention, I have 
managed to keep working in China for the past 16 years.
    In the past 16 years, I was briefly detained from August 24 to 
September 20 in 2002; November 25 to 28 in 2006; and December 27 to 28 
in 2007. I left China because of security concerns in January 1997, 
October 2002 and May of this year. But most of the time, I have been 
able to continue my work in China.
    Why am I sitting here, and not in prison? I have to say that I 
benefited from the following factors:

          1. HIV/AIDS is a public health concern, which the Chinese 
        government also cares about.
          2. I used to work at the government health education 
        institute, where I became known to the public and established 
        good working relationships or friendships with individuals in 
        government.
          3. Government officials who were friendly helped.
          4. International media coverage also offered some support and 
        protection.

    But I also carefully managed my own activities and took a sensitive 
approach in the language I used surrounding my work. I don't know 
whether these are reasons for my success or failure. But, I'd like to 
share these with you.

          1. Be transparent, don't hide.
          2. Comport yourself as if you are being monitored all of the 
        time and be sensitive to all potential risks.
          3. Use a professional approach and appropriate language.
          4. Avoid personally offending police and keep good 
        communication with them.
          5. When arguing with police, do so with regards to their 
        logic, not the basis of their order.
          6. Be aware of friends and allies inside the government, and 
        everywhere.
          7. Be critical not only of China but also of the United 
        States and other countries.

    When I was detained by the Beijing State Security Bureau for 
releasing a classified document, from August 24 to September 20 of 
2002, and detained by the Beijing Public Security Bureau in November of 
2006, the investigations were similar, focused on our funding sources, 
relationships with human rights groups and media, and information 
provided for foreigners. In 2006, the focus of investigation was on my 
relationships with overseas foundations and human rights activists 
inside China. As a nongovernmental organization (NGO) receiving foreign 
donations, I was very careful when answering questions. I insisted that 
I was serving the Chinese people and China, and we happened to receive 
foreign donations. And we also applied for Chinese government funding, 
although not much funding has been provided for us.
    While in detention, I was careful in my use of language and tone, 
and tried not to offend police. Sometimes we chatted. When they asked 
questions, I seriously thought about my response and then answered. I 
told police officers that I was serving the people--if my work became 
too difficult and dangerous, I could give up. I cooperated with a 
bottom line that I should not harm a third party.
    In talks over tea and meetings in my office with security agents, I 
was more open and frank, and questioned security departments or 
government policy in general.
    As a leader of an organization, we managed the organization in a 
transparent and professional way and based on the law. We anticipated 
that the Chinese government will come to investigate any day.
    Our work, however, has been severely damaged by government threats. 
Our conference on compensation for those infected with HIV/AIDS through 
blood transfusions was cancelled in November 2006. Many other events 
were also cancelled. Time was wasted. We psychologically felt bad. We 
stopped working a month before the Beijing Olympics for two months. We 
stopped working a month before the People's Republic of China's (PRC) 
60-year celebration. We had to politically sensor ourselves, which 
might damage our solidarity with other organizations and people.
    I left China via Hong Kong on May 6 of this year after being 
harassed by multiple government agencies. In the first six months of 
2010, our organization received pressure and harassment from about 10 
agencies, including public security, state security, the tax 
department, the department of industry and commerce where we were 
registered, propaganda department, the fire department, etc.
    Senators, human rights advocacy and civil society groups are 
developing rapidly in China. But human rights defenders and civil 
society groups are under severe surveillance and recently under attack 
by the Chinese government. How can the US government make a difference?

          1. US AID programs can make a difference, but currently I 
        don't know whether the United States has a clear strategy to 
        support civil society groups and human rights defenders. Should 
        the United States have an evaluation of its current aid 
        programs in China from a human rights perspective?
          2. Information and Internet freedom is crucial in empowering 
        people and protecting people. But if people are not well 
        organized, information itself can't work. The United States 
        should strengthen its work of supporting people in their 
        efforts to organize in ways that are based on democratic rules 
        and principles.
          3. The United States should guarantee that US-based 
        businesses will not be used to persecute human rights defenders 
        and civil society organizations. Companies involved in 
        information censorship and that provide privacy information to 
        the Chinese government should be punished in a democratic 
        world.
                                 ______
                                 

                Prepared Statement of Sophie Richardson

                             August 3, 2010

    Human Rights Watch has written extensively over the past several 
years about the Chinese government's persecution of scholars, 
activists, lawyers, and others as a means of crushing dissent. We and 
others have raised many well-known cases--Liu Xiaobo, Gao Zhisheng, 
Chen Guangcheng, Rebiya Kadeer, the Panchen Lama, Huang Qi, and Tan 
Zuoren--and the many problems therein, ranging from baseless charges 
that clearly violate the Chinese Constitution to torture in custody and 
denial of access to lawyers and family members.
    Human Rights Watch continues to believe, as we have since December 
2008, when Liu Xiaobo was arrested, that the government's actions 
toward him reflected an overall political hardening in China. The 
failure of the international community and the US government to respond 
forcefully then contributed to the most severe sentence passed since 
the introduction of the crime of ``inciting subversion'' in the PRC 
criminal code in 1997. Nor is there any doubt that Secretary of State 
Clinton's statement just two months after the sentencing, that human 
rights should not ``interfere'' with other aspects of the US-China 
relationship, was profoundly unhelpful. The string of harsh convictions 
against dissenters that followed Liu's sentence should not come as a 
surprise.
    Today Human Rights Watch wishes to highlight two individuals whose 
cases have gotten less attention but whose treatment we believe 
represents an alarming development: the extraordinarily harsh sentences 
given recently to those who are not dissenters or critics, but who in 
many ways embody the characteristics the government says it desires.
    Karma Samdrup is one of the largest private collectors of Tibetan 
antiques in China. He financed an environmental protection 
organization, the Qinghai Three River Environmental Protection group, 
after the Chinese government began a massive effort to protect the 
environment of the Qinghai-Tibetan plateau. Over the years, the group 
has won several awards for its work, and he was praised in the state-
run press. However, Karma Samdrup was arrested in Chengdu, Sichuan 
Province, in January 2010 on charges of robbing graves dating back to 
1998. In late June 2010, Samdrup received a 15 year sentence.
    Karma Samdrup's relatives and friends believe that the revival of 
the decade-old charges stems from his efforts to gain the release of 
his two brothers, who were arrested in August 2009, after the local 
environmental protection group they had created had tried to bring 
attention to various alleged environmental abuses by local officials, 
including the hunting of protected species. His two brothers are also 
in jail, one serving a 21-month reeducation through labor sentence, and 
the other a five-year prison sentence, both for alleged state security 
offenses. This is one of the most extreme cases of arbitrary 
persecution that Human Rights Watch has witnessed in decades.
    Gheyret Niyaz is a Uighur journalist and the editor of a popular 
website called Uighurbiz. He was detained in October 2009 on charges of 
``endangering state security,'' and on July 23, 2010, received a 15 
year prison sentence. His ``crime'' appears to have been giving an 
interview to the foreign media after the July 2009 ethnic violence in 
Xinjiang, although in those discussions Niyaz cited economic inequality 
and the role of outside instigators in the unrest.
     Although over the years Human Rights Watch has observed seemingly 
random persecution of individuals who appeared to pose no overt threat 
to the Chinese government, the charges and lengthy sentences against 
Samdrup and Niyaz should ring alarms.
    These two cases suggest to us another twist in the nature of 
political imprisonment: that one can embody the qualities the 
government proclaims it wants--apolitical, entrepreneurial, involved 
only in ``soft,'' state-approved causes--and still find oneself 
arbitrarily deemed a threat to state security. Put more simply, if 
these people are considered threats to the state, who does not fall 
into that category? How are people to avoid such charges--should they 
not be in business? Should they not support government-sanctioned 
causes, or turn down prizes from the government?
    We must also not forget the untold number of political prisoners 
whose names we do not know--those arbitrarily detained in the wake of 
the March 2008 protests across the Tibetan plateau and those similarly 
held in ``black jails,'' secret and illegal detention facilities used 
to remove petitioners and other ``undesirables'' from city streets. We 
must make a particular effort not to forget those in Xinjiang who are 
the victims of enforced disappearances following the ethnic violence in 
that region in July 2009 and demand account for them. And we must not 
forget individuals such as Liu Xiaobo, who committed the audacious 
``crime'' of asking the Chinese government to uphold its own 
Constitution and laws, or Chen Guangcheng, who tried to make the 
government's own legal systems function.
    All of these cases lead Human Rights Watch to the conclusion that 
political imprisonment in China has reached new lows of arbitrariness, 
and therefore no behavior is safe--your business success today might be 
a liability tomorrow; your call to end unrest last year might land you 
in hot water today; your approval from the government at any point is 
no guarantee of a life free of persecution.
    The United States should remain profoundly concerned about the 
Chinese government's persecution--until peaceful dissent is tolerated, 
the country cannot be expected to be predictably transparent or stable. 
But in its vast relationship with China, the ever-more arbitrary nature 
of political imprisonment should serve as a reminder that many of the 
United States' other goals and interests--the rule of law, a 
predictable trade regime, the development of civil society--are at risk 
so long as those in China who share those views are considered 
potential threats by their government.
    We offer the following recommendations as ways of ameliorating 
these problems:
    First, Secretary Clinton should make a strong, explicit statement 
that the United States is concerned by the noticeably worsening human 
rights environment in China.
    Second, the United States government and its officials should 
unambiguously reject the Chinese government's attempt to force the 
United States to keep silent on Tibet and Xinjiang on the basis of the 
Joint Declaration's recognition of China's ``core interests.''
    Third, all senior Obama administration officials should commit to 
raising at least one individual case in each meeting with their Chinese 
counterparts, particularly given the administration's claims to taking 
a ``whole of government'' approach to the promotion of human rights in 
China.
    And, finally, President Obama should welcome in the White House 
former political prisoners from China to give an unequivocal signal of 
support to China's fledgling civil society.
                                 ______
                                 

  Prepared Statement of Hon. Sander Levin, a U.S. Representative From 
   Michigan; Cochairman, Congressional-Executive Commission on China

                             August 3, 2010

    We hold this hearing today in order to shine a spotlight on 
political imprisonment in China. As this Commission has documented, for 
the last several months, the Chinese government has engaged in an 
increasingly harsh crackdown on lawyers and human rights defenders. 
Political repression, political imprisonment, and the tightening of 
controls over criminal defense attorneys, human rights lawyers, and the 
legal profession in general has led some Chinese legal experts to 
conclude that the rule of law in China today is in ``full retreat.''
    To promote the rule of law in China, it is vital that we publicize 
and seek the release of political prisoners--people detained or 
imprisoned for peacefully exercising their human rights under China's 
own Constitution and laws, or under China's international human rights 
obligations. These rights include peaceful assembly, freedom of 
religion, freedom of association, and freedom of expression--including 
the freedom to advocate for peaceful social or political change, and to 
criticize government policy or government officials.
    China's political prisoners include some of the country's most 
capable and socially committed citizens--scholar and writer Liu Xiaobo, 
labor and democracy advocate Hu Mingjun, HIV/AIDS advocate Hu Jia, 
attorney Gao Zhisheng, journalist Gheyret Niyaz, environmentalist Karma 
Samdrub, and thousands of others. Lawyers, labor advocates, religious 
adherents, advocates for ethnic minority rights, writers, scholars, 
civil society leaders, and businesspeople are in prison for exposing 
corruption, poor working conditions and environmental problems, for 
posting online commentary critical of the government or Communist 
Party, and for trying to organize without advocating violence. They 
must be released. If the Chinese government would engage these public-
minded citizens instead of making them the targets of brutal 
repression, then it would unleash constructive forces in Chinese 
society that are poised to address the very social problems with which 
the government and Party now find themselves overburdened, including 
rampant corruption, occupational safety and health, environmental 
degradation, and police abuse.
    Last month, this Commission completed an enhancement of its online 
Political Prisoner Database. The Commission's database provides a 
unique and powerful resource for governments, NGOs, educational 
institutions, and individuals who research political and religious 
imprisonment in China, or who advocate on behalf of political 
prisoners. The enhancement roughly doubled the types of information 
available to the public, enabling individuals, organizations, and 
governments better to report on political imprisonment in China and to 
more effectively advocate on behalf of Chinese political prisoners--and 
people around the world have been doing just that. The number of 
``hits'' to the database from individual users, NGOs, academic 
institutions and governments around the world has increased 
dramatically.
    Stability in China is in the national interest of the United 
States. The Chinese government's full and firm commitment to openness, 
transparency, the rule of law, and the protection of human rights, 
including worker rights and civil and political rights, marks a 
stability-preserving path forward for China. Anything less than the 
Chinese government's full and firm commitment to protect and enforce 
these rights undermines stability in China.
    The United States and China's engagement on trade and other matters 
has never been as extensive as it is today. The potential of this 
engagement in the future to bring prosperity and stability depends on 
China's applying its laws equally and fairly, in accordance with 
international human rights norms. That will require an end to political 
imprisonment. This hearing and the Commission's newly enhanced 
Political Prisoner Database both will play a critical role in enabling 
governments, NGOs, educational institutions, and the general public 
around the world to monitor China's progress toward that end.

                       Submission for the Record

                              ----------                              


Representative Cases From the CECC Upgraded Political Prisoner Database

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
